<html>
<title> - INVESTIGATIVE HEARING REGARDING ROLL CALL 814, DAY 2</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
          INVESTIGATIVE HEARING REGARDING ROLL CALL 814, DAY 2

=======================================================================


                                HEARING

                               before the

                    SELECT COMMITTEE TO INVESTIGATE
                      THE VOTING IRREGULARITIES OF
                             AUGUST 2, 2007

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2008

                               __________

                             WASHINGTON, DC



                     U.S. GOVERNMENT PRINTING OFFICE

44-140 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


SELECT COMMITTEE TO INVESTIGATE THE VOTING IRREGULARITIES OF AUGUST 2, 
                                  2007

WILLIAM D. DELAHUNT, Massachusetts, Chairman
ARTUR DAVIS, Alabama  MIKE PENCE, INDIANA, Ranking 
STEPHANIE HERSETH SANDLIN, South   Member Dakota 
STEVEN C. LaTOURETTE, Ohio KENNY C. HULSHOF, Missouri


  INVESTIGATIVE HEARING REGARDING ROLL CALL 814, DAY 2

                           ----------             ROLL CALL VOTE 814


                        WEDNESDAY, MAY 14, 2008

                  House of Representatives,
                Select Committee to Investigate the
                   Voting Irregularities of August 2, 2007,
                                             Washington, D.C.
    The Committee met, pursuant to call, at 9:39 a.m., in Room 
1539, Longworth House Office Building, Hon. William D. Delahunt 
[Chairman of the Committee] presiding.
    Present: Representatives Delahunt, Davis, Herseth Sandlin, 
Pence, LaTourette, and Hulshof.
    The Chairman. The Select Committee will come to order.
    I want to apologize. I am the one responsible for us 
beginning somewhat late. I hoped to start at 9:30.
    I would like to invite the panel--Mr. Hartz, Ms. O'Neill, 
and Mr. Pierson--forward; and there will be, by agreement, no 
opening statements today. We will just proceed directly to the 
panel.
    Let me introduce everyone; we will begin with Ms. O'Neill. 
She currently serves as the Deputy Director of Legislative 
Operations for the Speaker of the House. She began her career 
in the recording industry, promoting recording artists and 
negotiating contracts involving intellectual property rights 
for a recording company. She later served as special events 
coordinator for then-Congresswoman Nancy Pelosi, until her 
experience in negotiations and event planning translated to 
working in political campaigns. In 2002, she joined the Bill 
Richardson for Governor Campaign as regional field director and 
became political director for the campaign in 2003. It was 
later that year that she returned to the U.S. House of 
Representatives as Assistant to the Democratic Leader, Ms. 
Pelosi.
    And, as I indicated, she currently serves as Deputy 
Director of Legislative Operations. She serves as a liaison 
between the Speaker's Office, the Democratic Caucus, and staff, 
Republican legislative staff, offices of the House, White House 
legislative staff, and Senate leadership staff.
    How do you do all that? What a job.
    Mr. LaTourette. And is that all on her card, Mr. Chairman?
    The Chairman. I am feeling badly for you at this point in 
time.
    She is also responsible for advising other Members as to 
the legislative schedule and the business on the House floor, 
and I would note that she is also a significant part of Red Sox 
Nation. She has deep roots in Massachusetts. I knew her 
grandfather, her dad, her Uncle Tom. And she is one of the 
favorites of the Democratic Caucus. And I know that she also 
has respect and affection from the other side.
    And next is Jerry Hartz. This is a very short statement for 
you, Mr. Hartz. You weren't in the entertainment industry, 
that's obvious.
    What a beginning, Mr. LaTourette, could you please excuse 
yourself?
    Mr. LaTourette. I think I have seen him in things.
    The Chairman. This is not a good beginning. I think we need 
a recess. You can tell there is a collegiality here in this 
particular Committee. While we have our differences, we 
obviously work well and enjoy each other on a personal level.
    Mr. Hartz is on the staff of the Speaker; and he ascended 
there in 2002, when she became the Democratic Whip and later 
the Democratic Leader. As Executive Floor Assistant, he helps 
coordinate floor activity for the Democratic leadership 
offices; and he is the Speaker's designated staff person for 
the work of the Rules Committee. He graduated from Central 
University of Iowa with a B.A. in history and Magna Cum Laude 
honors.
    And last, but certainly not least, is Jay Pierson, who 
graduated from Westmont College in Santa Barbara with a degree 
in English literature. He later received a master's degree in 
English literature from Long Beach University and a Ph.D. in 
English literature from the University of Maryland. Dr. 
Pierson's career in the House of Representatives began in 1978 
in the Office of the Journal Clerk. He began working in the 
Republican Cloakroom in 1979 and began his current position as 
Floor Assistant to the Republican Leader in 1986.
    And I should also note that Mr. Pierson is truly a jack-of-
all-trades for the Republican Party. He is well liked and well 
respected by the Democrats and is a very knowledgeable 
professional.
    We welcome all of you here today, and we shall begin. We 
discussed among ourselves the procedure for today; and we will 
begin with the gentleman from Alabama posing questions, Mr. 
Davis.

TESTIMONY OF CATLIN O'NEILL, OFFICE OF THE SPEAKER, U.S. HOUSE 
 OF REPRESENTATIVES; JERRY HARTZ, OFFICE OF THE SPEAKER, U.S. 
   HOUSE OF REPRESENTATIVES; AND JAY PIERSON, OFFICE OF THE 
         MINORITY LEADER, U.S. HOUSE OF REPRESENTATIVES

    Mr. Davis. Thank you, Mr. Chairman.
    Let me welcome the panel. And just by way of clarity, so 
the panel has a sense of what we are doing, we have figured out 
that we are going to divide the time 40 minutes on the 
Democratic side, 40 minutes on the Republican side, and 10 
minutes of rebuttal, similar to yesterday.
    Ms. O'Neill, for your purposes, I am going to open with 
perhaps about 20 minutes worth of questions for you and then 
yield the balance of that time to Ms. Herseth Sandlin, who will 
pose questions to Mr. Hartz and Mr. Pierson. So for about 20 
minutes the gentlemen can relax a little bit. I am going to 
focus on Ms. O'Neill.
    Ms. O'Neill, thank you for taking the time to be here, 
first of all; and let me thank you also for meeting with the 
staff and being interviewed twice before.
    As you all know from yesterday, the Committee took 
interviews, deposition testimony, from a variety of witnesses. 
And, Ms. O'Neill, you were actually interviewed twice, as I 
recall; and both of those times obviously required you to leave 
your very busy work on the floor of the House. Both of the 
interviews were reasonably extensive, and we thank you for 
being so courteous. We thank you for being on call yesterday in 
case we got to you, and we thank you for being here.
    Let me begin.
    The chairman, you know, read a description of the many 
things you do on the floor of the House. We are obviously 
focused today on what your responsibilities are with respect to 
the presiding officer and the interaction you typically have 
with the presiding officer. Can you just briefly characterize 
for us what your responsibilities are in that regard?
    Ms. O'Neill. With regard to the presiding officers of the 
House, I schedule them for slots during the course of a 
legislative week and, in doing so, putting them in the Chair 
when we are in the whole House as well as in the Committee of 
the Whole. I communicate with them through their offices. If 
their offices need to get them any information, I get that to 
them.
    As far as votes are concerned, I keep them up to date on 
when votes are, what the votes will be on, et cetera. There is 
constant communication between myself and the Chair.
    Mr. Davis. And as I understand it, you work to schedule the 
lineup of presiding officers in the House. Is that correct?
    Ms. O'Neill. That's correct.
    Mr. Davis. And Mr. McNulty, as I understand it, was one of 
a group of individuals who were designated as regular presiders 
over the House. Is that right?
    Ms. O'Neill. That's correct.
    Mr. Davis. And it is my understanding that Mr. McNulty was 
placed in that group because of his experience and his 
expertise in presiding over the House.
    Ms. O'Neill. That's correct.
    Mr. Davis. And, obviously, Democrats just came into the 
Majority in 2007 after a hiatus, but, as I understand it, Mr. 
McNulty regularly presided during the last time the Democrats 
presided. Is that right?
    Ms. O'Neill. That's right.
    Mr. Davis. And I would assume you agree, Ms. O'Neill, with 
what every single witness said yesterday, that Michael McNulty 
has a reputation for being one of the outstanding presiding 
officers in the House?
    Ms. O'Neill. Indeed he does.
    Mr. Davis. And are you aware that reputation extends to the 
Republican side, that Mr. Boehner has described Mr. McNulty as 
one of the fairest presiding officers?
    Ms. O'Neill. I am.
    Mr. Davis. Now, with respect to your responsibilities and 
your connection with the presiding officer, there were a lot of 
questions yesterday about whether you have a role in the 
process of closing the vote out. So I want you to talk about 
that for just a moment.
    Ms. O'Neill. The process of closing a vote has many people 
playing a role: the leadership staff on the Democratic side, 
sometimes the staff on the Republican side, if we need to hold 
a vote open because someone is coming from off the Hill and 
there is a whole host of people in a van coming from the White 
House or whatnot. But, generally speaking, it is the leadership 
staffers on the Majority side saying to me, when I am down at 
the rostrum, now is a good time to close the vote.
    Mr. Davis. And after the clock passes zero--obviously, a 
vote can't close before it hits zero. After the clock passes 
zero, it is routine that many Members have still not voted. Is 
that correct?
    Ms. O'Neill. That's correct.
    Mr. Davis. And even on a motion to recommit at the end of a 
long voting series there is always a group of Members who at 
zero-zero, despite being on the floor all night, have still not 
managed to make their way to vote. Is that right?
    Ms. O'Neill. That is right.
    Mr. Davis. And it is not uncommon for Members on a close 
motion to recommit or a controversial motion to recommit to 
take some time to think about it.
    Ms. O'Neill. That's also correct.
    Mr. Davis. And is it fair to say that there is some 
lobbying that is going on by each side to get Members to cast 
the vote that each party wants them to cast?
    Ms. O'Neill. Certainly.
    Mr. Davis. And vigorous lobbying. That is commonplace on 
the floor of the House on a close vote, isn't it?
    Ms. O'Neill. That's right.
    Mr. Davis. And when the decision is made to close a vote--
and when I say ``close a vote'' I am saying banging the gavel, 
announcing a result and announcing the resolution, announcing a 
numerical result, announcing the resolution of the issue, who 
has the ultimate discretion as to when to do that?
    Ms. O'Neill. The Chair.
    Mr. Davis. In fact, could it be any other way?
    Ms. O'Neill. No.
    Mr. Davis. The presiding officer has the discretion. What 
is your role or what input do you typically offer, if any, 
regarding when a vote should be closed?
    Ms. O'Neill. When the leadership table has communicated to 
me that a vote needs to be closed, I tell the Parliamentarians, 
the Chair, that area, it is time for us to close the vote. 
Between the time that I suggest we close the vote and the 
actual vote is closed, sometimes often minutes go by because 
people are saying one more, and their votes haven't been 
tallied yet, or there is a myriad of reasons that it doesn't 
happen at the exact point that we are ready.
    Mr. Davis. And one of those reasons is that sometimes you 
suggest to a presiding officer that he close a vote and he 
decides to keep it open. Is that right?
    Ms. O'Neill. I am sorry. Could you repeat that?
    Mr. Davis. One of the reasons that a gap passes between 
your suggestion and a vote being closed, I imagine, is that 
sometimes a presiding officer just chooses not to listen to 
you. Is that right?
    Ms. O'Neill. That is right.
    Mr. Davis. Because, ultimately, it is the presiding 
officer's discretion; and sometimes a presiding officer will 
move to close a vote and he may hear someone yell one more or 
something to that effect. Is that right?
    Ms. O'Neill. That is right.
    Mr. Davis. Has there ever been an instance, Ms. O'Neill, 
when you have suggested that someone close a vote for the 
purpose of preventing a Member from casting a vote?
    Ms. O'Neill. No.
    Mr. Davis. Has there ever been a moment when you suggested 
that a presiding officer close a vote in an effort to keep 
Members in the well from casting a vote?
    Ms. O'Neill. No.
    Mr. Davis. Let's look at the tape for a moment; and the 
first thing I want to ask our videographer to turn to is a 
portion of the tape that is 22:46:42, if we can turn that on. 
And you have the screen in front of you, Ms. O'Neill. 22:46:42. 
You are an orange circle on this screen. I will represent that 
to you by agreement.
    [Tape played.]
    Mr. Davis. Do you see yourself?
    Ms. O'Neill. Yes.
    Mr. Davis. Let's stop the audio for a moment. What are you 
doing at this point?
    Ms. O'Neill. Communicating with the presiding officer.
    Mr. Davis. And what are you saying to him? Do you have any 
recollection at all of what you are saying?
    Ms. O'Neill. Not at that moment, no.
    Mr. Davis. Let's just look at the screen to get situated. 
Unfortunately, because of the way the board is set up, we can't 
quite tell how much time is left in the vote. But I will 
represent to you that 3 minutes before that, based on a 
timeline I have, Mr. McNulty had announced that there were 5 
minutes left to vote. So we will assume perhaps approximately 2 
minutes may be left on the vote at this point; and you will see 
that the score is 195 yeas, 206 nays.
    You have just said that there is nothing remarkable about 
this conversation. What kind of thing would you typically say 
to a presiding officer as the vote closes down to the 2-minute 
mark late at night?
    Ms. O'Neill. To gavel time--time limits, that 5 minutes--to 
let the Chamber know that 5 minutes have passed or that 2 
minutes have passed or that 10 minutes have passed, in an 
effect to get people to vote, because 15 minutes have gone by 
and they may not realize whether they voted or not.
    Mr. Davis. In effect, you are suggesting to him the clock 
is running out so let's kind of have people hurry along.
    Ms. O'Neill. That is right.
    Mr. Davis. And there are things the Chair does to hurry it 
along. The Chair will announce, 2 minutes left to vote. Any 
Members wish to change their votes?
    Those are common words that are used, is that correct?
    Ms. O'Neill. That is correct.
    Mr. Davis. Now, I will represent to you that the clock 
reaches zero. The vote is left open for a little while.
    I am going to ask you about another point that came up 
several times yesterday. If we can go to the point in the tape 
where Ms. O'Neill is pictured in some interaction with Mr. 
Hoyer and see if we can find the exact moment where that 
exchange occurs. Mr. LaTourette, do you happen to know as we 
reference the time----
    The Chairman. 22:49:46.
    Mr. Davis. 22:49:46. If we can go to that.
    Mr. Hoyer is the red circle. You see yourself, Ms. O'Neill? 
You are the orange circle.
    [Tape played.]
    Mr. Davis. All right. Mr. Hoyer is walking into the well, 
walking towards you. Let' stop.
    Does that in any way refresh your recollection of any 
conversation between you and Mr. Hoyer that night?
    Ms. O'Neill. No. My previous testimony stated the only 
conversation that I recall having with Mr. Hoyer is about 
having 13 members out that needed to vote.
    Ms. O'Neill. And, obviously, that is not this moment, 
because we see only six individuals have not voted. Is it fair 
to say in a typical course of a vote, particularly a close 
vote, that you have regular interactions with the Majority 
Leader?
    Ms. O'Neill. That is fair to say, yeah.
    Mr. Davis. And I don't know about you, Ms. O'Neill, but the 
way my memory works is, frankly, unless there is something 
unusual about a conversation I might not remember it a day 
later, much less a year later.
    Ms. O'Neill. Uh-huh.
    Mr. Davis. You just said you have no particular memory of 
this conversation with Mr. Hoyer. Do you have any memory of 
what you do after the conversation? You seem to turn perhaps 
toward Mr. McNulty.
    Ms. O'Neill. No.
    Mr. Davis. Do you have any recollection of any point that 
night when you said to Mr. McNulty you need to close this vote?
    Ms. O'Neill. I never said that.
    Mr. Davis. And do you have any recollection of the Majority 
Leader walking up to Mr. McNulty and saying, Mr. McNulty, you 
need to close the vote?
    Ms. O'Neill. No.
    Mr. Davis. You have any recollection of the Majority Leader 
saying to you that you need to instruct Mr. McNulty to close 
the vote?
    Ms. O'Neill. No.
    Mr. Davis. And at this point the vote is called at a time 
that is approximately 10:26:51. Let's go to that point if we 
can, 10:26:51, about 7 minutes later. You can turn the audio 
down while you are going through that.
    I will represent to you that during that time frame, as you 
may know, Mr. McNulty started to call the vote at 214-214, but 
he stops. Is it fairly common--keep the audio off for a moment. 
Is it fair to say, Ms. O'Neill, that Members will sometimes 
begin to call the vote, and they will hear someone yell one 
more, and they will step back?
    Ms. O'Neill. Absolutely.
    Mr. Davis. So there is nothing unusual at all about the 
first instance where Mr. McNulty goes 214 to 214 and then 
stops. That kind of thing happens all the time, doesn't it?
    Ms. O'Neill. Yes.
    Mr. Davis. Let's go to the much more decisive moment, which 
is 22:56:21.
    Mr. LaTourette. I think 22:51:14, Artur.
    Mr. Davis. All right. 22:51? I am sorry. 22:51. All right. 
Reading my notes wrong. Let's just go to 22:51 and just watch 
that for a moment. When we get to 51, let's just start the 
audio.
    All right. Go ahead. Just watch this, Ms. O'Neill.
    [Video played.]
    Mr. Davis. All right. At this point, Ms. O'Neill, Mr. 
McNulty calls the vote, announces a result.
    Let's go back to the wide angle for the tape again. All 
right. Look at the screen.
    And if we could actually go back a few seconds earlier to 
the point right before he calls the vote. Let's stop.
    All right. Are you in the tape at this point?
    Ms. O'Neill. Yes.
    Mr. Davis. Where are you?
    Ms. O'Neill. To the left of the screen, left of the 
rostrum.
    Mr. Davis. All right. Not particularly close to Mr. 
McNulty.
    Ms. O'Neill. That's right.
    Mr. Davis. You are not engaging in any conversation with 
Mr. McNulty. Is that correct?
    Ms. O'Neill. That's correct.
    Mr. Davis. Is the Leader in the screen at that point?
    Ms. O'Neill. No, not that I can see.
    Mr. Davis. Are you close to the Leader at that point?
    Ms. O'Neill. Not that I am aware of.
    Mr. Davis. So it appears to me, Ms. O'Neill, that Mr. 
McNulty is calling the vote on his own with no input from any 
member of the staff, yourself included. Do you agree with that?
    Ms. O'Neill. Yes.
    Mr. Davis. It appears to me that Mr. McNulty is calling the 
vote on his own, with no input from any Member of Congress, 
including the Majority Leader. Do you agree with that?
    Ms. O'Neill. I do.
    Mr. Davis. Now, one of the other points of contention is 
that after Mr. McNulty calls this vote--and, as you know, he 
has acknowledged he was in error. He has said as recently as 
yesterday that he looked up at the board, saw 214 to 214, 
believed that that was an accurate reflection of all Members 
voting, he did not realize that the last well card had not been 
processed on the board. He immediately recognized the error, 
because right after he said 214 to 214 the board actually went 
to 215 to 213 the other way. In other words, he missed the last 
vote.
    Right after that, you may recall that several Democratic 
Members went up and cast votes in the well; and they changed 
their votes. Do you recall that?
    Ms. O'Neill. Yes.
    Mr. Davis. Mr. LaTourette and Mr. Pence raised an issue 
yesterday as to why those Members were allowed to cast their 
votes or why the voting process continued. Did you have 
anything whatsoever to do with the fact that these Members were 
allowed to continue to process their votes?
    Ms. O'Neill. No.
    Mr. Davis. To your knowledge, did any, Member of the 
Democratic side, Member or Leadership, have anything to do with 
the decision to allow these Members to continue to cast their 
votes?
    Ms. O'Neill. Not that I am aware of.
    Mr. Davis. Do you have any recollection, Ms. O'Neill, of 
any individual attempting to cast a vote in the next few 
minutes and being denied that opportunity?
    Ms. O'Neill. Not that I am aware of.
    Mr. Davis. Do you have any memory of any Member complaining 
that night that they were attempting to change their vote but 
were denied the opportunity?
    Ms. O'Neill. No.
    Mr. Davis. I want to ask you for a few moments about the 
tally sheet that was discussed yesterday at some length.
    There was testimony from a number of people yesterday in 
the Parliamentarian's Office and from the Reading Clerks that a 
tally sheet is, as a matter of custom and practice, given to a 
presiding officer before a vote is announced. Now, as someone 
who has been in the Chair a few times, it is my recollection, 
Ms. O'Neill, that actually there are several pieces of paper 
that are often put in front of a presiding officer. My 
recollection is that it is not uncommon for the Parliamentarian 
to put a script in front of you that tells you what to say when 
you are recognizing Members. Is that correct?
    Ms. O'Neill. That is correct.
    Mr. Davis. My recollection is it is not uncommon for the 
Parliamentarian to put a slip in front of you that describes 
what language ought to be used when you close a vote. Is that 
also correct?
    Ms. O'Neill. That's correct.
    Mr. Davis. And it is my recollection that at the end of a 
vote Parliamentarian will give you a tally sheet. Is that 
correct?
    Ms. O'Neill. That's right.
    Mr. Davis. Is there anything in the rules about any of 
those three pieces of paper?
    Ms. O'Neill. Not that I am aware of.
    Mr. Davis. And those three pieces of paper are essentially 
a script that provides guidance as to what the presiding 
officer is to say. Is that right?
    Ms. O'Neill. That is right.
    Mr. Davis. Is it your experience, Ms. O'Neill, that very 
experienced presiding officers often don't feel the need to 
rely on the paper that is handed them by the staff?
    Ms. O'Neill. Yes, absolutely.
    Mr. Davis. And it struck me as I was listening yesterday, 
Ms. O'Neill, that a presiding officer like Mr. McNulty may have 
reasonably seen a tally sheet as the equivalent of the script 
that they put in front of you. Does that seem reasonable to 
you?
    Ms. O'Neill. That is reasonable.
    Mr. Davis. In other words, sure, it is here, it is normally 
given to me, but I don't necessarily need it. Does that make 
sense to you, that a presiding officer of his experience might 
think that?
    Ms. O'Neill. Yeah, he might think that.
    Mr. Davis. And have you seen experienced presiding officers 
in effect sometimes ignore the piece of paper and just use 
their own words and announce their own result?
    Ms. O'Neill. Yes.
    Mr. Davis. Have you ever suggested to a presiding officer 
that the tally sheet was any different from the other pieces of 
paper that the Parliamentarian puts in front of you while you 
are up there?
    Ms. O'Neill. No.
    Mr. Davis. Have you ever in your work with preparing 
presiding officers and getting them ready to leave the floor, 
have you ever suggested to one that a vote could not be called 
without a tally sheet being presented?
    Ms. O'Neill. No.
    Mr. Davis. Has any member of the parliamentary staff ever 
said to you that you must instruct your presiding officers to 
wait for a tally sheet?
    Ms. O'Neill. No.
    Mr. Davis. Has anybody ever said to you that you have to 
instruct your presiding officers to wait for any of the pieces 
of paper that are handed to you when you are up there?
    Ms. O'Neill. No.
    Mr. Davis. One last battery before I yield to Ms. Herseth 
Sandlin.
    There is an e-mail that you may be asked about by my 
Republican colleagues that you sent to Mr. McNulty the day 
after the vote. Do you remember that e-mail?
    Ms. O'Neill. Yes.
    Mr. Davis. Have you seen that in the course of your 
depositions?
    Ms. O'Neill. Yes.
    Mr. Davis. Can you relay the substance of that e-mail to 
us?
    Ms. O'Neill. I am trying to think what the language that I 
used was.
    Mr. Davis. And they will show you the document.
    Ms. O'Neill. Apologizing for putting him into that 
position. Something to the effect of the pressure he must feel.
    Mr. Davis. Mr. LaTourette, do you have a copy of that e-
mail by any chance?
    Mr. LaTourette. I am sorry. Maybe. Hold on. I have a packet 
of documents. I have a copy of the e-mail.
    Mr. Davis. I would just like to put it in front of you, and 
I would also like to ask that someone hand Ms. O'Neill a copy 
if we have an extra copy floating around.
    Mr. Davis. Can you just read your e-mail, Ms. O'Neill?
    Ms. O'Neill. ``I have to apologize on putting you in that 
position, but you did a remarkable job under a tremendous 
amount of pressure that I will never fully comprehend. Many, 
many thanks and gratitude, Catlin.''
    Mr. Davis. You were asked in your deposition about the use 
of the phrase ``putting you in that position''. What did you 
mean, Ms. O'Neill, when you said that?
    Ms. O'Neill. Putting him in the Chair as a presiding 
officer during a crazy moment on the House floor, where people 
were screaming on both sides of the aisle. I can't even begin 
to imagine what that was like.
    Mr. Davis. This e-mail is a document that you sent to 
someone whom you respect, someone you view as a very good 
Member, and someone who had admitted he made a mistake that 
night. Is that correct?
    Ms. O'Neill. That is correct.
    Mr. Davis. I will yield to Ms. Herseth Sandlin.
    Ms. Herseth Sandlin. I am going to begin my questions, Mr. 
Pierson, with you, if that's okay. I want to thank you for 
being here today and for your testimony earlier this year as 
well. And the Committee is very grateful for your complete 
cooperation with our investigation but also for your three 
decades of service to this institution and the American people.
    Mr. Pierson, could you just describe for the Committee your 
role on the House floor, what your duties consist of?
    Mr. Pierson. I basically am there to help Republican 
Members when they come on the floor if they are not sure what 
we are voting on, if they have come from committee or 
somewhere. I am a parliamentary--I have a lot of knowledge 
about parliamentary procedures. I am certainly not an expert--
the Parliamentarians are the experts--and also kind of a 
liaison between what I find out on the floor to our Cloakroom. 
They are pretty much tied up on the phones. So I am there to 
help them figure out if there are schedule changes and that 
kind of thing.
    Ms. Herseth Sandlin. And if we could just fast forward to 
the night in question, August 2nd, your testimony earlier this 
year that you provided to the Committee, to the Select 
Committee on April 7th, you testified on page 21 of your 
testimony that, quote, the rules of the House weren't broken, 
unquote. Is that still your opinion?
    Mr. Pierson. Yes.
    Ms. Herseth Sandlin. But, in fact, there were--as the 
Committee heard yesterday and as Mr. Davis was just questioning 
Ms. O'Neill, there were customs and best practices that weren't 
followed. Is that your opinion?
    Mr. Pierson. That's correct.
    Ms. Herseth Sandlin. And what do you think happened on the 
floor that night? I mean, what do you think were the primary 
factors contributing to the controversy?
    Mr. Pierson. The main factor, overwhelming factor, was 
pressure, heavy pressure by the Majority Leadership to close 
the vote. That, in turn, triggered pressure on Mr. McNulty to 
call the vote before actually reading the slip. He didn't have 
a slip.
    And, incidentally, it just happened that because he didn't 
have that slip the Tally Clerks were not prepared to close the 
vote. And, as everybody knows, there was a card that came in, 
and just about the time McNulty announced 214-214 the board 
said 215-213, and the word ``final'' appeared on the board.
    Ms. Herseth Sandlin. And are you aware that Mr. McNulty has 
testified before this Select Committee that he did not feel 
pressure from leadership or receive any instruction to close 
the vote?
    Mr. Pierson. I am not aware of that.
    Ms. Herseth Sandlin. You were asked in your testimony 
earlier this year as well about the fact that the Minority did 
have a couple of options for redress that evening, and we 
covered some of this during yesterday's testimony as well. Now, 
they had the option of vacating the vote, as was requested by 
Mr. Hoyer. Can you explain why the Minority objected to 
vacating the vote?
    Mr. Pierson. Well, I can only give you my opinion. I didn't 
suggest to anybody to object. But if you vacate the vote you 
virtually take away the entire vote all evening that happened 
and you start the vote over again, and the Majority Leader 
twists some arms and they win the vote.
    I mean, you are better off with the 215-213 on the board 
with the words final--or the word final up there than you are 
vacating the vote and starting all over again when you are in 
the Minority.
    Ms. Herseth Sandlin. Now, the Minority had the option of 
essentially redoing the vote through a motion to reconsider, as 
was also requested by Mr. Hoyer. Can you--in your opinion, why 
was that unacceptable to the Minority, which I think ultimately 
led to some Members of the Minority walking out of the Chamber?
    Mr. Pierson. I am not sure it was necessarily unacceptable, 
because it happened, and there was a reconsideration vote, and 
Mr. Hoyer moved it. In fact, I had suggested to him earlier 
that it is possible we would move to reconsider. It is just an 
option out there all the time.
    I mean, when you are in the Minority you don't get much; 
and we were in the Minority part of my career and in the 
Majority part of my career. It is a whole lot better being in 
the majority. But you don't get much, so you grab what you can. 
And a reconsideration vote is similar in a sense to a vacate 
vote in the sense that you end up having the vote all over 
again and you end up losing. And we thought we had won. It said 
215-213, final.
    Ms. Herseth Sandlin. And I think that as you have testified 
today it is consistent with your earlier testimony on April 7th 
where you stated, in fact, quote, if you vacate it, you give 
kind of an imprimatur of validity, unquote, so therefore it 
would have been preferred to, quote, leave it out there as 
something that was done wrong by the majority, unquote.
    Mr. Pierson. Yes.
    Ms. Herseth Sandlin. You testified to the effect that if 
the vote hadn't been called when it was by Mr. McNulty in what 
turned out to be an erroneous call the Minority would have lost 
any anyway and would have complained that the Democrats held 
the vote open too long. Why do you believe that?
    Mr. Pierson. Well, because in the end the vote came up 212-
216, although Mr. Boehner's card switch wasn't allowed. But 
still we lost the vote in the end, and the result would have 
been the same.
    Ms. Herseth Sandlin. But you have seen concerns raised by 
Members of the Minority throughout the 110th Congress about the 
issue of enforcing Rule XX clause 2(a).
    Mr. Pierson. Yes.
    Ms. Herseth Sandlin. Correct?
    Mr. Pierson. Right.
    Ms. Herseth Sandlin. And are you familiar with Mr. 
McNulty's testimony before this Select Committee that his 
reason for calling--closing the vote prematurely as he did was 
a good-faith effort to enforce Rule XX clause 2(a)?
    Mr. Pierson. I am not familiar with that, but if he said 
that I think that is rather a stretch.
    Ms. Herseth Sandlin. Would you explain why?
    Mr. Pierson. Yeah, because at 214-214 the motion would have 
gone down. And it is easy to say, well, we wanted to close the 
vote as soon as possible because we were enforcing Rule XX 
clause 2(a), and there is no specific time limit when it says 
for the sole purpose of holding open a vote. I mean, what does 
that mean? Two minutes? Five minutes? Eight minutes? Ten 
minutes? There is no specificity there. So any Chair could say, 
oh, I closed the vote because we didn't want to abridge that 
rule.
    Ms. Herseth Sandlin. But you would agree it is a 
subjective----
    Mr. Pierson. Sure. It is very subjective.
    Ms. Herseth Sandlin [continuing]. Call for the Chair?
    Mr. Pierson. Yes, sure.
    Ms. Herseth Sandlin. And while you just in your opinion 
think that it would be a stretch for Mr. McNulty to claim that 
that's what he was trying to do, you also testified that Mr. 
McNulty is, quote, a very decent guy. Do you still believe that 
today?
    Mr. Pierson. Yes.
    Ms. Herseth Sandlin. And do you believe that he would ever 
intentionally break the rules of the House?
    Mr. Pierson. I guess it is the definition of what is 
intentional. I mean, when there is heavy pressure from the 
leadership and you are put in the Chair by the leadership, it 
is a difficult situation. I mean, so intentional? Perhaps not. 
I don't think it went through his mind, hey, I am going to 
break a rule here or I am going to win this vote for us. It is 
just there was a lot of pressure on him.
    He is an excellent Chair. And of all the people to have up 
there it was ironic. I think probably he is the best Chair the 
that Democrats have. So with that kind of pressure, I don't 
know whether it was intentional or not.
    Ms. Herseth Sandlin. But do you believe that he acted with 
the best of intentions on August 2nd and, as he testified 
before this Committee yesterday, just made a mistake in good 
faith?
    Mr. Pierson. I would say it was a mistake. I don't know 
about his good intentions. I can't read his mind. I don't know 
what he was thinking up there. But he has been in the Chair 
many, many, many times. You always use the slip. He didn't. And 
just the time he called the vote it went 215-213.
    So I don't know what was in his mind. But from the outside 
looking in, it looked like there was a lot of pressure on him. 
He called it at the wrong time. Now, whether it was intentional 
or not, I don't know, and I don't know what he was thinking.
    Ms. Herseth Sandlin. We have also heard testimony about the 
fact that Mr. Boehner submitted a well card, as you just 
mentioned in your testimony, to change his vote near the end of 
the process. And Mr. Boehner testified that he submitted that 
change card, quote, to be on the prevailing side of the vote in 
case there was a move to reconsider the vote, unquote. Is that 
your understanding of why Mr. Boehner submitted that card?
    Mr. Pierson. Yes.
    Ms. Herseth Sandlin. And is that common practice?
    Mr. Pierson. It is common practice when you want to 
reconsider, yes. We don't do that very often, but----
    Ms. Herseth Sandlin. So you don't think that Mr. Boehner 
changed his card because he had a change of heart on the 
substance of the issue?
    Mr. Pierson. No.
    Ms. Herseth Sandlin. However, the well card wasn't 
processed; and Mr. Boehner's vote wasn't changed.
    Now, you were asked in your earlier testimony on April 7th 
whether if Mr. Hoyer hadn't moved to reconsider there was an 
option that Mr. Boehner may have moved to reconsider. That's 
what you had spoken to Mr. Hoyer about on the floor. Is that 
correct?
    Mr. Pierson. Right.
    Ms. Herseth Sandlin. But then you had also stated in your 
testimony, when asked if Mr. Boehner would have moved to 
reconsider if Mr. Hoyer had not done so, that that was a 
hypothetical question, but, ``I think if we had our heads on 
straight, we probably wouldn't have.'' Is that still your view?
    Mr. Pierson. I suppose. I mean, in situations like that, 
things are happening so fast that you can't sit out and have 
like a little time out to sit down and say what is the best 
thing to do. Normally, when you want to cause a problem or you 
don't like a particular vote and you reconsider, it is 
something that is made in a snap judgment.
    If I had to go back and look at it from where I am looking 
at it now, I absolutely wouldn't have reconsidered because we 
would have lost the reconsider. So, in that sense, I would say 
perhaps not if we had time to think about it. But that is why 
he was in the well, yes, to change his vote so he could be on 
the prevailing side.
    Ms. Herseth Sandlin. Okay. Mr. Hartz, thank you for being 
here today. It is a very memorable introduction of you to the 
panel.
    In your words, will you describe your role in the Speaker's 
Office?
    Mr. Hartz. Yes. I have been up here 21 years. I started 
with David Bonior. I am the Director of Floor Operations for 
Speaker Pelosi, which means I oversee in general the operations 
of the floor to make sure they go smoothly between the 
different leadership offices and that some of the concerns that 
she would have as Speaker for the whole body are met.
    Ms. Herseth Sandlin. Moving straight to the night of August 
2nd, you were on the House floor. Correct?
    Mr. Hartz. Yes.
    Ms. Herseth Sandlin. And the Speaker of the House was on 
the floor as well, correct?
    Mr. Hartz. Yes.
    Ms. Herseth Sandlin. And is that a common occurrence for 
the Speaker to be on the floor and to vote on a pending matter 
before the House?
    Mr. Hartz. Certainly for the Speaker to be on the floor is 
very common. It is not, you know, too common for her to vote. 
It is at her discretion; and, generally, she votes when she 
considers it an important vote.
    Ms. Herseth Sandlin. And what was your role that evening 
specifically relating to when the Speaker is on the floor to 
vote?
    Mr. Hartz. Well, we knew once we found out what the 
recommit is, which we don't have any advance knowledge of, that 
this was probably going to be a close vote. And she was there. 
We were looking at Members and how they were voting; and, as 
the time ran out, it looked like that she would be needed to 
vote.
    Ms. Herseth Sandlin. And while it is rare for her to vote 
and, as you just explained, at her discretion, when she does 
vote, is it common for you to give her a signal or communicate 
to her in some way when it is time for her to vote or when we 
are running down on time or----
    Mr. Hartz. It would depend on the situation, but it could 
go either way where she decides on her own or I tell her, you 
know, time has run out; you better vote.
    Ms. Herseth Sandlin. I don't think I have any further 
questions unless Mr. Delahunt or Mr. Davis have any follow-up 
questions for the witnesses.
    The Chairman. Thank you. I have a few questions, and I am 
going to direct them to Mr. Pierson. And as I said when I 
introduced him at the beginning, he is a professional that 
really has the respect of the Members in the Democratic Caucus. 
He has got a very pleasant style, and he is known to be an 
individual of substance. And he does know something about the 
institution, after serving there for some 30 years--you talk 
about pressure, Jay--and we have heard it yesterday on several 
occasions in terms of questions posed by my colleagues in the 
Minority.
    And you described--I think you used the term ``overreaching 
pressure'' or maybe the Majority Leader was overreaching in 
terms of creating pressure to influence the actions by Mr. 
McNulty by closing the vote. What led you to that conclusion? 
What did you observe? What did you see? What did you know?
    Mr. Pierson. Mainly just observing Mr. Hoyer. I mean, I am 
all over the floor when I am on the floor, so I don't sit and 
watch him on every vote. But on this kind of a vote it was very 
close, and you could see him going up to the rostrum area.
    The Chairman. How many times did you see him go up to the 
rostrum?
    Mr. Pierson. I can't remember, but I remember on the tape 
him going up and talking to the Parliamentarians. And now 
whether Mr. McNulty heard that I don't know. And, of course, I 
can't tell you that I was over there listening to what Mr. 
Hoyer was saying.
    The Chairman. How many times--if you remember, how many 
times did he have an interaction with the Parliamentarians on 
the rostrum?
    Mr. Pierson. Probably twice that I can remember. One in 
particular you can hear on the tape. I mean, that is kind of 
audible and obvious. Whether I would have remembered that 
without the tape I don't know. But that is--you can see it on 
the tape. And pressure is a matter of----
    The Chairman. Of perception.
    Mr. Pierson. Of definition, basically. I mean, I wasn't 
there. I didn't hear him screaming at McNulty to close it. But 
being in the Majority for 12 years, I mean, we, you know, 
sometimes wanted to close votes also. We didn't close them 
without slips. But, nevertheless, there is that feeling that 
the Whip is ready. Let's close this thing out. And that is, in 
a sense, is pressure in the sense you are telling the Chair, 
hey, hit the gavel. It is time to go.
    The Chairman. But your answer is that the evidence of the 
pressure that led you to that conclusion was on two different 
occasions you saw an interaction between Mr. Hoyer and the 
Parliamentarians.
    Mr. Pierson. Yes.
    The Chairman. And is there any other evidence of the 
pressure?
    Mr. Pierson. No.
    The Chairman. So it is--it goes to those two particular 
occasions?
    Mr. Pierson. Right.
    The Chairman. Do you have a memory of the duration of those 
two interactions? Were they brief?
    Mr. Pierson. Yes. Yes. The one that I--I didn't just see, I 
heard.
    The Chairman. You heard that on the tape.
    Mr. Pierson. I heard Mr. Hoyer telling the Parliamentarians 
something. And that was very brief. Now, whether he stayed up 
there for a long time, I don't know. I am too busy doing other 
things. But I saw him go up, say something.
    The Chairman. If I suggested to you it was a matter of less 
than 3 seconds----
    Mr. Pierson. No, I would say it was more than that. 
Probably half a minute, 20 seconds, something like that.
    The Chairman. 20 seconds?
    Mr. Pierson. Yeah.
    The Chairman. Well, we have--we will have a chance as the 
Committee to review the tape to determine the duration, and we 
are trying to reach an agreement as to the duration of these 
interactions. I am calling them interactions. In the questions 
posed by other Members, the term conversations is being used. 
But after my own review, if these were conversations, they were 
so brief one party would only have had the opportunity to say 
anything.
    But, in any event, your conclusion as to overreaching 
pressure was these two interactions between the 
Parliamentarians and the Leader.
    Mr. Pierson. Yes.
    The Chairman. You observed no interaction between Mr. 
McNulty and Mr. Hoyer?
    Mr. Pierson. No.
    The Chairman. You talked earlier about having heard it on 
the mike. You couldn't have heard it because of where you were 
situated at the time on the floor or because of the deafening 
noise that enveloped the Chamber that evening?
    Mr. Pierson. No, where I was situated.
    The Chairman. Where you were situated.
    Well, getting to the issue of noise, it was loud that 
night.
    Mr. Pierson. I have heard it before, but it was loud, yes.
    The Chairman. I know.
    Mr. Pierson. Yes.
    The Chairman. But it was particularly loud that night. In 
fact, on page 11, you say specifically, according to your 
interview, it was loud that night. There was too much noise. 
But you could clearly hear the mike.
    Mr. Pierson. Clearly hear the mike?
    The Chairman. You could clearly hear Mr. Hoyer because of 
the mike. That one interaction that we are talking about.
    Mr. Pierson. On the DVD, yes.
    The Chairman. Right. On the DVD.
    Mr. Pierson. Of that night.
    The Chairman. Okay. But it was loud. It was, as I said 
earlier, raucous; and in the past, as you have indicated, the 
Chamber does become loud. And when you have, as you said, 400 
guys out there talking, whatever, and sometimes the Chair can't 
hear, that very well describes the situation that evening.
    Mr. Pierson. Sure.
    The Chairman. Would you agree with that?
    Mr. Pierson. Yes.
    The Chairman. I can understand the perception that you had 
in terms of looking up and seeing that display board say final. 
We have also heard testimony that simply the final being 
displayed on the summary board has no parliamentary 
significance. Are you aware of that?
    Mr. Pierson. Yes.
    The Chairman. But, again, I don't disagree. Because it 
makes common sense to me, if I were to look up and see the 
summary board and it says final, it ought to be final or it 
ought not to be on the summary board.
    Mr. Pierson. Right. Agree.
    The Chairman. But we know that it wasn't final in terms of 
parliamentary consequences. And yet your boss, the Minority 
Leader, in his interview with us stated that he felt that the 
Minority was disenfranchised because the vote was final and 
that he reached that conclusion based upon the display on the 
summary board. And it would appear from your interview that you 
reached that conclusion as well.
    Mr. Pierson. Yeah. A lot of Members. I mean, the word final 
says final. I don't think it was just the fact that it said 
final. It was also the fact that it was different than what the 
Chair called. You have two different things there.
    The Chairman. Right. And you also indicated that--I think 
your words were, when there was a problem with the computer and 
the information went dark, that that was throwing fuel on the 
fire----
    Mr. Pierson. Right.
    The Chairman [continuing]. In terms of the anger on the 
Minority side.
    Mr. Pierson. Right.
    The Chairman. And I would submit that that is also 
understandable.
    And, subsequently, you learned that there was a technical 
problem. Is that fair and accurate?
    Mr. Pierson. Some kind of technical problem where they had 
to abort the vote, yes.
    The Chairman. But it was a technical problem. It was 
nothing to do----
    Mr. Pierson. As far as I know. I am not a Tally Clerk. But, 
in talking to them, I understand there was some kind of problem 
getting out of that vote and getting to the reconsideration 
vote.
    The Chairman. Thank you, Jay.
    Mr. Davis. Mr. Chairman, could I ask unanimous consent to 
follow up on one thing that you asked Mr. Pierson about before 
I forget it, frankly? And I will be happy to have the 
Republicans have an extra 1 minute.
    Mr. Pence. An extra 3 minutes.
    Mr. Davis. My question was only seeking 1 minute. If they 
want an extra 3, that's fine, too.
    The Chairman. Go ahead.
    Mr. Davis. Thank you, Mr. Chairman.
    Let me just follow up on one thing, Mr. Pierson. I will do 
it now. Otherwise, I may forget it later.
    The Chairman asked you about the source of the pressure 
that night that was going on in the Chamber, and you ventured 
your opinion that the source of the pressure was the Democratic 
leadership. Is it fair to say, Mr. Pierson, that a number of 
Republicans had complained over the course of 2007 that 
Democrats, despite rule 2(a), were sometimes keeping votes 
open?
    Mr. Pierson. Yes.
    Mr. Davis. In fact, is it fair to say that that had become 
a running subject of controversy, that there were certain 
Members of the Minority who were regularly complaining that you 
guys are violating your own rule. You remember that kind of 
controversy on the floor?
    Mr. Pierson. Sure.
    Mr. Davis. In fact, do you remember a number of instances 
in 2007, Mr. Pierson, prior to the night of August 2nd when 
Members of the Minority would go to the floor and would make 
parliamentary inquiry regarding rule 2(a)?
    Mr. Pierson. Yes.
    Mr. Davis. Do you remember a number of instances prior to 
August 2nd, 2007, when Republican Members would go to the floor 
and very heatedly argue that rule 2(a) had been violated?
    Mr. Pierson. Heatedly? I don't know about that.
    Mr. Davis. Let's not quibble about that.
    Mr. Pierson. Yes.
    Mr. Davis. With some level of passion and belief?
    Mr. Pierson. Yes. Yes.
    The Chairman. Enervation is the word.
    Mr. Davis. In fact, Mr. Pierson, the night in question, 
August 2nd, weren't there Republican Members saying close the 
vote down?
    Mr. Pierson. I don't recall that.
    Mr. Davis. Is it possible that in all the cacophony that 
night there were some Republican Members yelling close it down, 
too?
    Mr. Pierson. I suppose it is possible, but----
    Mr. Davis. It was after 10 o'clock, after a long day of 
voting, we were near recess, we were trying to get out of 
there, weren't there Republicans who were also yelling close it 
down?
    Mr. Pierson. I don't know.
    Mr. Davis. You can't say there weren't, can you? And if Mr. 
McNulty sat here and said yesterday that he felt pressure from 
controversy over rule 2(a), you are not in a position to 
contradict that, are you?
    Mr. Pierson. No.
    Mr. Davis. Thank you, sir.
    The Chairman. Mr. Pence? We will give you an additional 
whatever you need.
    Mr. Pence. Thank you, Mr. Chairman. Thank you for your 
courtesy and for calling this second day of investigative 
hearings.
    I want to welcome the panel, and I also want to acknowledge 
how much easier it is to sit on this side of the table than it 
is to sit on that side of the table.
    I also want to acknowledge the recognition that answering 
questions from people in our position as Members of the House 
when you are in staff positions in the House is also especially 
awkward, and so I want to bring my questions in a measured 
spirit of fairness. But we do have questions.
    Mr. Pence. Now let me begin with Mr. Pierson, and thank you 
for your testimony and your service to the House. You arrived 
on Capitol Hill in 1978, worked in the Republican Cloakroom. Is 
that correct? Thereabouts?
    Mr. Pierson. Yes.
    Mr. Pence. And then I am told that you took your current 
position as Republican Floor Assistant in 1988.
    Mr. Pierson. '86.
    Mr. Pence. Thank you for the correction.
    So you have enjoyed your current position since 1986. And 
so you have served in Republican minorities, Republican 
majorities, and now back in Republican minorities.
    Mr. Pierson. That's correct.
    Mr. Pence. Under--let me say during your tenure as the 
Republican Floor Assistant when the Republicans had the 
majority, was direction--I think I heard you say today--was 
direction from the Republican Leadership to the Chair about 
closing a vote common or uncommon?
    Mr. Pierson. Common.
    Mr. Pence. Very common.
    Mr. Pierson. Common.
    Mr. Pence. And let me give you a chance to restate I think 
it was a statement you just made. Did you ever during your 
tenure in the majority or the minority--in the majority, 
rather, did you ever see the Republican majority and the 
presiding officer close a vote without allowing the Clerk to 
produce a tally slip?
    Mr. Pierson. No.
    Mr. Pence. Do you ever recall--well, let me withdraw the 
beginning of that question. Let me let you reinforce one other 
point here. Your testimony today is that you perceived that the 
Majority Leader, Steny Hoyer, was putting pressure on the Chair 
to close the vote. Is that correct?
    Mr. Pierson. That's correct.
    Mr. Pence. The Chairman of this Committee focused on 
occasions and evidence, but it was your perception as someone 
who has worked in and around the floor of the House of 
Representatives for 30 years that the Democrat Majority Leader 
was putting pressure on the Chair to close the vote.
    Mr. Pierson. That's correct.
    Mr. Pence. As to Mr. Davis's final line of questioning, do 
you think Mr. Hoyer was trying to close the vote to enforce 
clause 2(a) of Rule XX?
    Mr. Pierson. No, I don't.
    Mr. Pence. Why do you think he was trying to close the 
vote?
    Mr. Pierson. Because he thought he had won, that the motion 
had gone down 214 to 214.
    Mr. Pence. So it wouldn't surprise you if you learned that 
Mr. Hoyer's testified repeatedly to this Committee that, in 
fact, when he ordered or expressed a desire that the vote be 
closed he wanted to see the vote closed, quote, while we were 
prevailing, close quote. Mr. Hoyer--you think he was trying to 
close the vote because they were winning the vote. So it 
wouldn't surprise you that he essentially said that to the 
Committee.
    Mr. Pierson. No, it would not. It would not surprise me.
    Mr. Pence. He used the phrase, to close the vote while we 
were prevailing. Thank you.
    And thanks again for your service to the House, which I 
think all the Members of this Committee recognize as 
distinguished and principled.
    Mr. Hartz, I would associate the same statements with your 
career.
    Mr. Hartz. Thank you.
    Mr. Pence. And I appreciate your cooperation with this 
Committee.
    Just a couple quick questions for you, Mr. LaTourette may 
or may not explore this.
    There is, at a point on the tape--and we can produce it, 
but in the interest of time, I will ask you a few questions.
    Did you give Speaker Pelosi a signal to vote during Roll 
Call 814?
    Mr. Hartz. Yes. The time was expired or rapidly expiring, 
and I wanted to make sure she had a chance, if she wished to 
vote.
    Mr. Pence. Okay. So those of us that have interpreted the 
hand signal from you, that was indicating that the Speaker 
should vote.
    At what point did you realize Roll Call 814 was going to be 
a close vote?
    Mr. Hartz. I don't think I would have had any knowledge 
until the motion to recommit was offered--we have no advance 
notice of this--so not until we knew what the content was, and 
then we assumed it would have been a close vote.
    Mr. Pence. Is it common for the Speaker of the House to 
vote? Is it uncommon? My perception is that Speaker Pelosi 
votes more often than her immediate predecessor, but give us a 
sense of that.
    Mr. Hartz. Well, I think it is really at her discretion. It 
is when she considers it an important vote. I would say, in 
general, issues that she cares a lot about substance-wise, she 
would vote on, some of the agenda items that we've talked about 
in this Congress--minimum wage, things like that.
    Other times, you know, she is a member of the Majority and 
she has the right to vote.
    Mr. Pence. But to your testimony moments ago, would it be 
fair to say she considered this an important vote?
    Mr. Hartz. Yes.
    Mr. Pence. And that was the reason for her presence on the 
floor?
    Mr. Hartz. Well, I think she would have been on the floor--
I mean, as I recall, there was a whole series of votes here. 
And she is often on the floor----
    Mr. Pence. Let me restate, because I want to acknowledge 
the Speaker of the House is often on the floor. That was the 
reason for her casting a particular vote in this instance. She 
thought it was an important vote.
    Did it contribute--to your knowledge, did it contribute to 
your thinking, or the Speaker's thinking, this would also be a 
close vote?
    Mr. Hartz. It probably was a factor in this instance, yes.
    Mr. Pence. It was a factor.
    Did you have any conversations--and I am not playing a 
gotcha game here; this was a question you were asked in your 
deposition, and you indicated you do not recall a specific 
conversation.
    But for the record today at this hearing, did you have any 
conversations with our other witness, Catlin O'Neill, about the 
timing of closing Roll Call 814?
    Mr. Hartz. I did not.
    Mr. Pence. You did not recall, or you did not have a 
conversation?
    Mr. Hartz. I think the only conversation I would have had 
with her is, you know, this is going to be a close vote, ``get 
ready'' kind of thing. But I did not tell her to close the 
vote.
    Mr. Pence. Okay. Do you know whether any members of 
Leadership staff had any such conversations or discussions with 
Ms. O'Neill?
    Mr. Hartz. No, not that I am aware of.
    Mr. Pence. When did you first learn that Mr. McNulty had 
not, in your words, ``waited for the paper,'' referring to the 
tally slip that was not produced in connection with Roll Call 
814?
    Mr. Hartz. I did not learn of that until after the fact 
when I spoke to John Sullivan, the Parliamentarian.
    Mr. Pence. Now, you answered this in the affirmative--and, 
again, this is not a gotcha moment, so I want you to know you 
answered in the affirmative.
    Did John Sullivan tell you later that evening that Majority 
Leader Steny Hoyer had been putting a lot of pressure on the 
vote?
    Mr. Hartz. Yes, he indicated that. That was my first 
awareness of that.
    Mr. Pence. So you were not--that is a follow-up. You were 
not aware or did not perceive the pressure, but John Sullivan 
did tell you that evening that Mr. Hoyer had been putting a lot 
of pressure on the vote?
    Mr. Hartz. He said that. You will have to remember, I was 
at the leadership table a long ways away from the rostrum, and 
as we have heard, there is a lot of noise and cacophony in the 
Chamber.
    Mr. Pence. What prompted your decision that it was time for 
Speaker Pelosi to cast her vote?
    Mr. Hartz. Well, I think the clock had either expired or 
was very close to expiring. It was clearly a close vote, and, 
you know, there wasn't much chance for her to vote if she was 
going to vote.
    Mr. Pence. And to the best of your recollection, as a 
senior Democrat floor aide, did you have a vote goal or a 
target in mind? Did you know, for example, that 214 to 214 was 
the tally that would ensure the Democrats to prevail?
    Mr. Hartz. No. I mean, it depends on absentees and 
everything. I don't think I had--I don't recall--any specific 
vote number in mind.
    Mr. Pence. At the time that your hand went out, do you 
recall being aware that that vote by the Speaker, at your 
urging, would in that moment tie the vote 214 to 214?
    Mr. Hartz. I don't think I would have known that. I mean, 
there are always votes going in. It is real time, and within 
seconds things change. So I don't think I would have had any 
specific knowledge that this was the vote that was going to get 
it.
    Mr. Pence. Great. Thank you, Mr. Hartz. Thank you for your 
service to the House.
    Mr. Hartz. Thank you.
    Mr. Pence. And to the American people.
    Ms. O'Neill, thank you for appearing, I think this is your 
third time before the Committee.
    Ms. O'Neill. Third time.
    Mr. Pence. Let me say on behalf of the Minority, we 
appreciate your cooperation and your availability, and we also 
understand, as I said before to the whole panel, the 
uncomfortable position that this puts all of you in.
    Let me see if I can get through some questions, but try and 
mitigate that to some extent, because what we are struggling 
with here, as a Minority, is trying to make things add up that 
don't seem to add up.
    So I want to go through basic fact questions, and Mr. 
LaTourette will very likely take you more through the 
narrative. But a few key points.
    One of your responsibilities on the floor is to schedule 
the presiding officer for the votes; is that correct?
    Ms. O'Neill. That is correct.
    Mr. Pence. You may want to step a little closer to the 
microphone for the record. Thank you.
    You have testified that you personally asked Mr. McNulty to 
be the presiding officer for Roll Call 814?
    Ms. O'Neill. Yes, he was responsible for doing the motions 
to recommit and final passage on all the agricultural 
appropriations--I mean, all the appropriations bills.
    Mr. Pence. And I think it has been your testimony 
consistently that you consider Mr. McNulty to be an experienced 
presiding officer?
    Ms. O'Neill. That is right.
    Mr. Pence. You stated during your interviews with the 
Select Committee that the only conversation you had with Mr. 
McNulty during Roll Call 814 was that it was going to be a 
tight vote and that he should bear with you.
    Is that still your testimony.
    Ms. O'Neill. That is still my testimony.
    At my second testimony I further added to that that at some 
point I would have likely gone up to him to say gavel at 10 
minutes, 5 minutes, 2 minutes remaining, so we can get an 
effort to get people in.
    Mr. Pence. Reminding him to encourage Members to vote?
    Ms. O'Neill. Right.
    Mr. Pence. But at no point after the time had lapsed--let 
me ask you, after the time had lapsed, did you add one more----
    Ms. O'Neill. No.
    Mr. Pence [continuing]. Signal, encouraging him to close 
the vote?
    Ms. O'Neill. Not that I am aware of.
    Mr. Pence. When did you first become aware that the vote 
was going to be close?
    Ms. O'Neill. That is hard to say. Between probably 3 
minutes and 5 minutes before the vote was closed.
    Mr. Pence. Did you have any conversations with the Speaker 
that she might need to vote because the vote was going to be 
close?
    Ms. O'Neill. No.
    Mr. Pence. The video--and I expect Mr. LaTourette will let 
you comment on this specifically. The video of Roll Call 814 
shows that you had at least three separate--what are we calling 
them, Chairman?
    Ms. O'Neill. Interactions.
    The Chairman. Interactions.
    Mr. LaTourette. Apparent interactions.
    Mr. Pence [continuing]. Apparent interactions, or very 
brief conversations with Mr. McNulty in one instance, 
immediately before he attempted to close the vote.
    If all you told him was that it was going to be a tight 
vote and he should bear with you, why did you need to speak to 
him so many times?
    Ms. O'Neill. I have conversations with the Chair on a 
regular basis. I have no recollection of any conversation with 
him outside of the ones I have mentioned in my previous 
testimony, but I am in constant communication with the Chair.
    Mr. Pence. Mr. Hoyer has been very candid with this 
Committee that he wanted the vote closed as soon as Speaker 
Pelosi had voted, making the vote 214 to 214. Mr. Hoyer has 
acknowledged as recently as yesterday before this Committee--
speaking loudly, I think his testimony was. At least twice, I 
think he has testified he intended to be heard.
    We have received testimony from six witnesses serving on 
the rostrum, including one that was seated beyond Mr. McNulty, 
all of whom testified that they heard Mr. Hoyer indicate his 
desire that the vote be closed.
    Do you recall hearing Mr. Hoyer direct that the vote be 
closed?
    Ms. O'Neill. I have no recollection of that.
    Mr. Pence. The videotape of Roll Call 814 shows that you 
had a conversation with Mr. Hoyer at the base of the rostrum. 
You stated in your interviews with the Select Committee that 
you only recalled one conversation with Mr. Hoyer about Roll 
Call 814, during which you discussed the fact, I think, that 
there were 13 Democratic Members who had not voted.
    But if I told you that at the time of this particular 
conversation there were not 13 votes still outstanding, would 
that surprise you? Is it possible there was another 
conversation that happened in that moment, and what might that 
have been?
    Ms. O'Neill. The only conversation I remember having with 
Mr. Hoyer is that there were 13 Members out. I also am not 
privy to information down at the rostrum. So I may have said 
there were 13 Members still out, and perhaps that wasn't the 
case.
    But the only information, the only conversation I recollect 
is 13 Members.
    Mr. Pence. Thank you.
    When asked about that particular conversation, during his 
interview Mr. Hoyer stated, ``I don't recall specifically, but 
I am clearly saying to Catlin that we need to shut down the 
vote when we are prevailing.''
    Does that refresh your recollection at all about that 
conversation?
    Ms. O'Neill. No.
    Mr. Pence. Now, Mr. Hoyer did go on to say, and he repeated 
this again yesterday, that you don't work for him.
    Ms. O'Neill. That is right.
    Mr. Pence. And that he couldn't technically instruct you to 
do anything because you work for the Speaker. He did testify, 
though, previously, page 93 of his deposition, that he had no 
doubt you would ``be certainly interested in what the Majority 
Leader believes ought to be done.''
    As a general rule, are you interested during votes about 
the preference of the Majority Leader, about when a vote should 
be closed?
    Ms. O'Neill. The Majority Leader, the Whip, their staffs, 
everybody. People are operating with tons of different 
information, so I am collecting all that. It is helpful.
    Mr. Pence. In this instance, what the Majority Leader 
clearly believed ought to be done is that the vote be closed 
down while the majority was prevailing, according to his 
testimony. If that is what the Majority Leader said to you, as 
he claims, it seems highly unlikely that that conversation you 
had with Mr. McNulty immediately thereafter would not have 
included that message.
    Wouldn't you agree with that?
    Ms. O'Neill. No, I wouldn't agree with that.
    Mr. Pence. Why not?
    Ms. O'Neill. Because I have no recollection of it.
    Mr. Pence. There is a point in the videotape where Mr. 
Hoyer has a fairly heated exchange with John Sullivan. Do you 
recall hearing or seeing that exchange? It is fairly famous.
    Ms. O'Neill. I saw it.
    Mr. Pence. You saw it in real time.
    Did Mr. Hoyer ever tell you what he was upset about?
    Ms. O'Neill. No.
    Mr. Pence. Mr. Hoyer told the Select Committee that he was 
angry because he believed that one of the Assistant 
Parliamentarians, Ethan Lauer, who testified yesterday, had 
instructed Mr. McNulty not to close the vote immediately after 
the Speaker had voted.
    Did you ever hear Mr. Lauer or any other Parliamentarian 
say to Mr. McNulty that he should not close the vote?
    Ms. O'Neill. No.
    Mr. Pence. Did you ever hear any Parliamentarians interrupt 
Mr. McNulty's first attempt to close the vote?
    Ms. O'Neill. No.
    Mr. Pence. Let me ask you one final question, and I will 
yield to Mr. LaTourette.
    Before his angry outburst toward the Parliamentarians, did 
you say anything to Mr. Hoyer about the Parliamentarian 
advising Mr. McNulty, or the timing of closing the vote?
    Ms. O'Neill. No.
    Mr. Pence. So you didn't communicate anything to him about 
any preference of the Parliamentarian or the Parliamentarian's 
interpretation of the rules?
    Ms. O'Neill. No.
    Mr. Pence. Thank you.
    I will yield to Mr. LaTourette.
    The Chairman. Before you yield, Mr. Pence, I would like to 
acknowledge the presence of the gentleman from Missouri.
    Mr. Hulshof. Good morning.
    The Chairman. A fine member of this panel.
    Now let me yield back.
    Mr. LaTourette. Thank you very much. I want to add my 
welcome to Mr. Hulshof, and although she has spoken, Ms. 
Herseth Sandlin. Things prevented them from being here 
yesterday, and it is always best when we are at full 
complement.
    I want to begin with an observation that I think the House 
of Representatives is lucky to have all three of you working 
for us.
    And with Mr. Pierson, I have had the pleasure of knowing 
for 14 years, and everything the chairman said about you is 
right, and you are someone that I feel confident going to not 
only for information, but good information.
    One of the disappointments we probably have around here is 
that we don't get to know the staff on the other side as well. 
I would venture to say that Democratic Members don't know Mr. 
Pierson as well as they know the two of you, and vice versa.
    I think, as I talk to people, the fellow that preceded me 
was a guy named J. William Stanton who talked about the good 
old days--as a matter of fact, when your grandfather was 
Speaker--and the fact that while people had differences, they 
set those differences down at 5 o'clock and they got along well 
together.
    So I have made it the practice of trying to observe what 
goes on with the other side.
    Mr. Hartz, I will tell you, although I don't know you very 
well, I have always called you ``Dave Bonior's guy,'' because 
that is where I first saw you. I paid attention to you because 
you always pay attention to people who are kicking your butt, 
and you kicked our butts on a pretty regular basis. And that is 
not to disparage your current leadership or anything else.
    Ms. O'Neill, I also observed you from when you were 
transferred from your first post, I didn't know about your 
entertainment career, but from your first post to your floor 
duties; and from what my observation is, you do just an 
outstanding job and you do exactly what Speaker Pelosi asks you 
to do. So, again, the House is lucky to have you, all three of 
you.
    Mr. Pierson, I want to begin with you and go quickly 
through your observations in your interview and then what you 
have said today.
    On page 5 of your interview, in answer to, I don't remember 
whether it was the gifted counsel for the Majority Mr. Spulak 
or our counsel, Mr. Paoletta, who is also gifted, that there 
were three things that you thought caused this series of 
events.
    Do you remember what those three things were that you 
identified?
    Mr. Pierson. The three things were pressure from the 
Majority Leader; not calling the vote from the slip; and the 
timing of the fact that a card came in after Mr. McNulty called 
the vote, but hadn't gone through the tally, the computer 
tally, so when it came up on the board it was different from 
what he called.
    Mr. LaTourette. On page 6 you talk about, I think in 
response to Ms. Herseth Sandlin's question, this whole notion 
of whether it is a good strategy to do the motion to reconsider 
once we found ourselves in this position where the Chair had 
called the 214 to 214 and it was really 215 to 213.
    And I was trying to have this conversation with Mr. Hoyer 
yesterday, but he wasn't very compliant with my observations.
    So I think you have described it accurately, and that is, 
if the facts really were that at the time what was in the 
machine, the people that had voted, it really was 215 to 213, 
it would always be beneficial for the Majority to have that 
vote reconsidered, because there were 19 Democrats that had 
voted in favor of the Republican motion to recommit.
    Having been someone that operated in the DeLay 
administration in the majority, I am familiar with the feeling 
of having my arm in a sling on a number of occasions and having 
been encouraged to cast a vote that was a team vote.
    And there is no doubt in your mind, is there, that if there 
was a reconsideration based upon the fact there are more 
Democrats in the House than the Republicans, they would have 
prevailed?
    Mr. Pierson. Correct.
    Mr. LaTourette. So it is a little bit like it was cast 
yesterday, that was so fair. Well, it is a little bit like--
maybe we will talk about a sporting event. It is a little bit 
like maybe the Cleveland Cavaliers playing the Boston Celtics, 
and LeBron James launches a ball from half court and scores as 
time is expiring, clearly winning the game. But somehow they 
say, well, you know what, that is not so good; we have to do a 
redo. So we are going to redo LeBron James' shot from half 
court and pray he makes it.
    I mean, that is what they were giving us. It was a gift, a 
nicely wrapped box, but you open the box and there is nothing 
in the box, right?
    Mr. Pierson. Yes, I agree.
    Mr. LaTourette. Okay.
    And to Mr. McNulty, you were asked about Mr. McNulty's 
state of mind, and I think that is not appropriate. Only Mr. 
McNulty knows what his state of mind is, and only Mr. McNulty 
testified, as he has done--and I think openly, honestly.
    And every member of this panel considers Mr.--McNulty to be 
a good, decent, honest human being, a great presiding officer, 
a credit to the institution and his party. But I think--as I 
was growing up, there was an expression that the road to hell 
is paved with good intentions.
    So this issue of intentions, Mr. McNulty indicated that 
because of his concern about clause 2(a), he made the decision 
that he needed to close the vote after the Diaz-Balart, Mario 
Diaz-Balart, vote was entered. And to my mind--and I may be 
crying in the wilderness, but that--and Mr. Hoyer told us, 
everybody told us, that the state of mind of the Speaker on the 
enforcement of 2(a) is the only thing that matters. Well, the 
guy with the discretion said he closed the vote because to keep 
it open after Mario Diaz-Balart would have violated 2(a).
    So he may have had the best intentions; he may have made a 
mistake. He did make a mistake. And I think he has been a great 
honest guy. But just like--and I told him, if I am driving down 
my street, and I think it is 35 and it is really 25, I have 
made a mistake, but I have still have gone 35. And he still 
closed the vote, in my opinion, in a way that was not 
appropriate.
    On page 9, you indicated your observation that Steny was 
trying to close the vote himself. Do you remember saying those 
words?
    Mr. Pierson. I don't recall that I said ``himself,'' but I 
mean, it was his pressure on the Chair that led to the problem.
    Mr. LaTourette. Thank you, Mr. Pierson.
    Could I ask that the three witnesses be given the two-page 
document called Video Highlights. And then just while that is 
being handed out to you, I want you to know that we have come 
up with new and improved ways to identify apparent interactions 
between people on the floor that evening and the tape so we 
don't have to get into--you don't have a color code?
    Perfect.
    So I think you already saw it, but just for the purpose of 
viewing, so we don't get into it, the parties have stipulated, 
Ms. O'Neill, that when we watch a slice of videotape, you will 
have an orange halo around yourself; Mr. Hartz, you will have a 
yellow halo around yourself; the Majority Leader will have a 
red halo; the Speaker of the House will have a purple halo; Mr. 
Sullivan will have a green halo; and I really don't think I am 
going to talk Ms. Gillibrand or Mr. Space. So when we get to 
that portion, if you just sort of pay attention to your halo 
and the other halos of individuals who I am going to chat with 
you about.
    And if we could queue up, begin with you--well, before we 
get to the tape, Ms. O'Neill, in, I don't remember which one of 
your interviews, but you indicated you were not familiar with a 
document that the Parliamentarians provided to Speakers pro tem 
called the prompt sheet. Do you remember?
    Ms. O'Neill. Yes.
    Mr. LaTourette. Okay. Could we put that up on the board?
    This was identified yesterday by Mr. Sullivan, the 
Parliamentarian of the House, as a document that has been 
prepared by the Parliamentarian's Office to be placed in front 
of Speakers pro tem. The indication was, I think--I forgot to 
ask Mr. McNulty--but I came away with the impression that it 
probably was not in front of Mr. McNulty on that evening 
because he was such a great and experienced Chair.
    But, again, have you not ever seen that?
    Ms. O'Neill. I have never seen that.
    Mr. LaTourette. Mr. Hartz, have you ever seen it?
    Mr. Hartz. I only saw it after the fact.
    Mr. LaTourette. Never before.
    Mr. Hartz. Not before.
    Mr. LaTourette. Are you aware of whether or not it is 
before the Speakers pro tem since the sort of dust-up we had on 
August 2nd?
    Mr. Hartz I am not.
    Mr. LaTourette. How about you, Mr. Pierson? Ever seen it?
    Mr. Pierson. I have never seen this specifically, but I 
know there are a lot of cards the Parliamentarians have that 
they give to either Chairmen or Speakers, because they need to 
read exactly what is on the card. So I have never seen this 
specifically. But, yes, they have lots of stuff up there.
    Mr. LaTourette. Now let's get to apparent interactions.
    If--Hugh, could you run chapter 4 for us?
    Maybe if you watch the TV there you can do better. Just 4, 
and then stop. Okay, there is chapter 4.
    Ms. O'Neill, did you recall that apparent interaction with 
the Chair?
    Ms. O'Neill. No.
    Mr. LaTourette. If I represented to you, based upon my 
understanding of where the clock is on the vote, that there are 
about 5 minutes left in the vote, would that be consistent with 
your observation that you would go down at 5 and 2? Is that a 
fair----
    Ms. O'Neill. On my second testimony I had said that after 
watching the tape, my assumption being that I was telling the 
Chair to prompt the Chamber with the gavel to get Members in to 
vote.
    Mr. LaTourette. I think that is 5 though, and I am not 
trying to trick you.
    Could we go to chapter 5, please.
    Do you recall that apparent interaction?
    Ms. O'Neill. No.
    Mr. LaTourette. If I represented to you that in just a 
moment Mr. McNulty is going to bang the gavel and say, there 
are 2 minutes left, would it be a reasonable guess that is what 
you were describing to us?
    Ms. O'Neill. It certainly would.
    Mr. LaTourette. Could we go to Video Highlight, chapter No. 
6. Stop it at 49, 22:49.
    Do you have a recollection of that apparent interaction 
with the Chair?
    Ms. O'Neill. No.
    Mr. LaTourette. If I indicated to you that--I thought we 
would get to it, but that shortly after this apparent 
interaction, Mr. McNulty bangs the gavel and indicates, asks if 
any Members want to vote or change their votes, would that sort 
of be a good guesstimate of why you were having that apparent 
interaction with the Chair?
    Ms. O'Neill. Yes.
    Mr. LaTourette. Chapter 7. And, Mr. Hartz, I am going to 
ask you to perk up, because you are in this one.
    Stop it there, please.
    Mr. Hartz, you were the yellow circle that we have now 
taken away. I would ask you, did you see your--and I am sorry, 
I don't know whether it was your right or left arm. Did you see 
your right or left arm just make a signal?
    Mr. Hartz. Yes.
    Mr. LaTourette. And is it fair to say that the signal was 
given to the Speaker of the House, Ms. Pelosi, who was the blue 
circle?
    Mr. Hartz. Yes.
    Mr. LaTourette. And is that what you were discussing, that 
you were indicating to her that she should probably get over 
there and vote?
    Mr. Hartz. Yes.
    Mr. LaTourette. Thank you very much.
    Play.
    Stop it there, please.
    Ms. O'Neill, at this moment in time, I referred to this as 
sort of the Olympic rings. It appears your ring has now joined 
Mr. Hoyer's ring.
    Is it reasonable to say that that represents some apparent 
interaction between you and the Majority Leader?
    Ms. O'Neill. It is reasonable, yes.
    Mr. LaTourette. Could you--and I would ask all members and 
staff to watch the clock, could you just say the words, ``Close 
the vote now,'' for me? Could you just say those words?
    Ms. O'Neill. Say, ``Close the vote now''?
    Mr. LaTourette. Yes. Could you do that for me.
    Ms. O'Neill. Close the vote now.
    Mr. LaTourette. I didn't even see a second go off the 
clock, for the chairman's edification.
    Could you continue rolling the tape.
    All right, stop it there.
    There again, Ms. O'Neill, there appears to be an apparent 
interaction between you and Mr. McNulty following the 
reasonable assumption that you and the Majority Leader had an 
apparent interaction. Do you recall?
    Ms. O'Neill. That conversation? No.
    Mr. LaTourette. Thank you.
    Ms. O'Neill. But I would represent to you if I were getting 
a signal from anybody to close a vote, I would keep the 
Parliamentarians informed of closing the vote, because they 
need to help do that.
    Mr. LaTourette. Sure. But, again, your testimony is you 
don't recall, that is what happened?
    Ms. O'Neill. Yes.
    Mr. LaTourette. So all the questions Mr. Davis asked you 
about ``typical this'' and ``typical that,'' you just don't 
remember?
    Ms. O'Neill. No.
    Mr. LaTourette. Let me say to you both, I think what makes 
us suspicious is that if you watch that chapter 7--and if you 
want me to play it again for you, I would be happy to do it. 
But if you watch chapter 7 and you watch the scoreboard and you 
watch what occurs, within the space of something that starts at 
49 minutes after the hour and 30 seconds and only takes 20 
seconds, we have the following sequence of events:
    We have your signal to the Speaker to vote;
    We have an apparent interaction between you and the 
Majority Leader;
    We have an apparent interaction between you and Mr. 
McNulty;
    We have the Reading Clerk announce the Speaker's vote, 
which ties it at 214-214; and
    We have Mr. McNulty closing the vote.
    So I know that there is a perception in your party that we 
are all right-wing nuts, and in our party that you are all 
liberal wackos. But you understand our suspicions, right? You 
understand what looks funny about chapter 7 to us?
    Mr. Hartz, you understand?
    Mr. Hartz. The only thing I would say is, this was like a 
really chaotic moment in time, and with your experience and 
knowledge and many years here, it all sort of happens so 
quickly, to assume this is all that coordinated is very 
difficult. I mean, people are changing in the well all the 
time, and they clearly were changing even after this vote. So 
that kind of precision is hard to execute.
    Mr. LaTourette. I got you. And I would, I think, go back to 
my complimenting to you. I think you guys are great. I think 
you did a great job of getting it to a tie and closing the 
vote. But that is my perception.
    My last question before I want to yield to my friend from 
Missouri, the next Governor of the State of Missouri, Ms. 
O'Neill, you were more than forthright in providing documents 
to the Committee, e-mails and such, that may have--that were 
pursuant to the document request.
    And I would ask an e-mail to be put up, and it appears to 
be an e-mail exchange between you and somebody by the name of 
Brandon Daly. Who is Brandon Daly?
    Ms. O'Neill. He is our Communications Director.
    Mr. LaTourette. For the Speaker of the House?
    Ms. O'Neill. For the Speaker of the House.
    Mr. LaTourette. And I asked you about this the second time 
you were kind enough to come in for an interview.
    At one point it says, and you--you have it? Okay. It says 
words to the effect, they continue to bring up ``the slip.''
    ``The slip,'' is it in quotation marks?
    Ms. O'Neill. Yes.
    Mr. LaTourette. ``The slip,'' they are referring to the 
tally slip that was never produced on Roll Call Vote 814 on 
August 2nd; is that right?
    Ms. O'Neill. That is right.
    Mr. LaTourette. Okay. I think I asked you who the ``they'' 
were, and we had some testimony yesterday that this sort of 
became the buzz of the House, that there was no slip 
immediately after it occurred.
    But I thought you had told me that you thought that it was 
a commentator on Fox News--I know a favorite of the Democratic 
Party--and/or C-SPAN. We went back and could not find some 
``theys,'' talking about the absence of a slip.
    So I just want to be clear. Is it still your recollection 
and observation that when you--and this was the next morning 
that you crafted this e-mail to Mr. Daly, right--that the 
``they'' you were talking about, it is your belief then and 
today that the ``they,'' who were sort of making an issue out 
the fact that there was no slip, was someone on television?
    Ms. O'Neill. It was someone on television.
    Mr. LaTourette. It was not a member or the staff?
    Ms. O'Neill. No.
    Mr. LaTourette. Lastly--and I apologize for this, Mr. 
Pierson--Boehner's card, John Boehner's card that would have 
put him--and, again, the procedural importance of that is that 
by issuing a change card, to go off ``aye,'' on ``no''--it put 
Mr. Boehner in an opportunity, if he had so chosen, by being on 
the eventual prevailing side, to make a motion to reconsider, 
if that were the Republican strategy.
    The fact that that vote was not recorded as a change 
deprived him of the opportunity to do that; is that right?
    Mr. Pierson. Right.
    Mr. LaTourette. Now, I know that there has sort of been 
this ``no harm, no foul'' attitude in a lot of the questioning, 
and the issue is, well, big deal, because Hoyer made a motion 
to reconsider anyway, which you and I talked about was who 
wanted it, because we knew we were going to lose.
    But the fact of the matter is, it is a big deal, because 
John Boehner represents 630,000 Americans, and on this 
particular occasion, for whatever reason, he could have decided 
to change his vote because it was a Tuesday and he thought, on 
Tuesdays I always change my vote with a well card. It doesn't 
matter.
    What matters is that his vote wasn't counted.
    And today, even with all this stuff that we have done in 
this hearing, today this vote wasn't 214-214. This vote wasn't 
215 to--well, I would argue maybe it was 215 to 213, but it 
wasn't 212 to 216.
    The accurate vote, from people who actually wanted to vote, 
no matter how long it took, was 211 to 217; and that is not 
reflected anywhere in the records of this House, is it?
    Mr. Pierson. No.
    Mr. LaTourette. Thanks.
    I yield to Mr. Hulshof.
    Mr. Hulshof. Thank you, Mr. LaTourette.
    Let me just follow up, because a lot of good questions have 
been covered. We have seen the videotape. We have reviewed your 
testimony.
    Mr. Hartz, let me go back just to some general questions. 
You were inquired of by my friend, Mr. Pence, about the 
Speaker's propensity to vote, and occasionally she does, I 
think you said, on a substantive issue. Or certainly on the 
agenda items, it is important to cast a vote and then trumpet 
that vote, especially if you prevail.
    Are you aware, sir, that, first of all, the bill that we 
were considering that day, there were a lot of amendments. Do 
you remember the bill itself, what it was?
    Mr. Hartz. Ag appropriations, yes.
    Mr. Hulshof. Ag appropriations. We had a lot of amendments, 
didn't we?
    Mr. Hartz. Yes, you did.
    Mr. Hulshof. You talked about, it was a long week and there 
was a recess impending, and this was late into the evening.
    Would it surprise you to know or, in fact, do you know that 
on Roll Call Votes 803 to 813, amendments to the ag approps 
bill, the Speaker did not vote? Are you aware, on that series 
of 10 or 11 votes, that she did not cast her vote?
    Mr. Hartz. I was not aware, but I guess that doesn't 
surprise me.
    Mr. Hulshof. You were talking about--the first opportunity 
that the Majority side gets to see what is the substance of a 
motion to recommit is often as it is being introduced or filed 
or read by the Clerk--and a copy, of course, is provided to 
your side--and that is when you realized the substance 
contained within the motion.
    Is that a fair characterization?
    Mr. Hartz. That is correct.
    Mr. Hulshof. When you learned that the substance of the 
motion to recommit was bringing up yet again the issue of 
taxpayer benefits to illegal immigrants, did that signal in 
your mind, uh-oh, this is a tough one, or, this is going to be 
a close vote?
    Mr. Hartz. We approach every recommit that the Minority 
offers with extreme caution, and we assume it is going to be 
something like that.
    So, yes, that would have been a signal that there was going 
to be, you know, an issue here.
    Mr. Hulshof. Ms. O'Neill, let me ask you to chime in here 
as well. Even though you perhaps are not as involved in the 
policy, you are, of course, involved in making sure the votes 
run smoothly and, from the Majority's point of view, trying to 
succeed as often as possible.
    You mentioned that you understood--in fact, I think you 
told the presiding officer, Mr. McNulty--this was going to be a 
close vote. Was that because you also recognized that the 
substance of the vote was somewhat controversial, that is, 
benefits to illegal immigrants?
    Ms. O'Neill. No. It was more based on the number of people 
that had not yet voted.
    Mr. Hulshof. I thought it was your testimony in earlier 
statements that actually you knew it was going to be a close 
vote, and you so advised Mr. McNulty earlier in the vote, not 
that it was towards the end when you were looking to see the 
actual tally on the board that we watch.
    Ms. O'Neill. No. I believe that I informed him that it was 
going to be a close vote, probably midway through the vote, 5 
minutes or so, based upon the number of people that hadn't been 
voting.
    Mr. Hulshof. For the benefit of folks who watch C-SPAN at 
home, what we watch and what we have seen as far as Democrat 
votes, Republican votes, those who have cast an ``aye'' vote, a 
``nay'' vote, a ``present'' vote or those not voting, that 
information is available to Members at the leadership tables, 
is that true, on the computer screen?
    Ms. O'Neill. Correct.
    Mr. Hulshof. But ultimately, Mr. Hartz, what we look at, or 
what most Members generally in a vote--we see the tally board 
on either end or either side of the Chamber, which basically 
shows the clock winding down and the continuous tally as the 
votes are being tabulated by the Clerk.
    Is that a fair statement?
    Mr. Hartz. Correct. And then, of course, there is the big 
board behind the rostrum as individual Members vote.
    Mr. Hulshof. Right. So recognizing early on this was going 
to be a close vote, would you agree the issue was somewhat 
controversial?
    Mr. Hartz. Yes.
    Mr. Hulshof. The issue had been raised numerous times by 
Republicans in various amendments and other motions to 
recommit; is that a fair assessment?
    Mr. Hartz. Yes.
    Mr. Hulshof. And that issue itself caused some angst, did 
it not, within the Democratic Caucus?
    Mr. Hartz. Yes.
    Mr. Hulshof. In fact, I think, Ms. O'Neill, even you 
referenced earlier in a question of you in a previous statement 
that the Blue Dogs--that you recognized somewhere along the way 
the Blue Dogs--and, again, for those not conversant in our 
parlance, the conservative Democrats--were voting in favor of 
the motion to recommit. Is that right, Ms. O'Neill?
    Ms. O'Neill. I was just aware of who wasn't voting. And, 
yes, there were Blue Dogs on that list.
    Mr. Hulshof. Mr. Hartz, getting more specifically to the 
policy, one of the reasons this is such a tough issue within 
your own caucus is because there are conservative Democrats who 
have a difficult time with this issue.
    Is that true?
    Mr. Hartz. Well, I think--yes, I think there are many 
issues that both sides struggle with.
    Mr. Hulshof. And as the vote then was drawing to a close, 
your prediction that this was going to be a close vote was, in 
fact, verified.
    I mean, this was a close vote. In fact, I think, and we 
could go back--I don't want to take the time in the few seconds 
I have remaining. But when you signaled to the Speaker that she 
should go cast her vote, the motion--as she was making her way 
to the well to get the card, the motion to recommit was 
succeeding 214 to 213, and that was--in fact, one of the 
reasons why the Speaker was signaled to vote, was because--I 
mean, it was a razor-thin margin; is that true?
    Mr. Hartz. I don't remember what was exactly on the board 
at that point. I think I was mostly concerned that she get in. 
The time had expired. But if you said it was 214 to 213, I will 
take your word for it, obviously.
    Mr. Hulshof. Well, I think the video speaks for itself, and 
rather than take the time and going through it, perhaps we will 
have some time later on.
    Let me, Mr. Chairman, if you will indulge me for one last 
question, in essence.
    The Chairman. Sure.
    Mr. Hulshof. The characterization that Mr. LaTourette just 
provided as far as the scenario of events, particularly as it 
relates to chapter 7, with the pressure by the Majority Leader, 
Mr. Hoyer, and Ms. O'Neill, while you indicate that you did not 
hear the outburst, you saw the outburst, you would agree, would 
you not, that ``agitated,'' maybe ``angry,'' would you agree 
that was the characterization of what you witnessed?
    Ms. O'Neill. Certainly. But that is not uncommon.
    Mr. Hulshof. Mr. Hoyer frequently is subject to agitation--
--
    Ms. O'Neill. All Members. All Members.
    Mr. Hulshof. Let me defer at this point. You have been 
indulgent with your time, Mr. Chairman. I will yield back to 
you at this point for our next round.
    The Chairman. Okay.
    Ms. Herseth Sandlin.
    Ms. Herseth Sandlin. You go ahead.
    Mr. Davis. I just had a few observations and probably won't 
take very much time. I will direct these towards the panel and 
perhaps get some reaction. Since Mr. LaTourette made some 
observations, I do want to respond to at least one of them.
    I find it very interesting that when we started our hearing 
yesterday, we were very focused on the erroneous vote calling, 
which happens at 10:51:26. We were very focused at the 
beginning of this hearing on the point when Mr. McNulty slams 
down the gavel, calls the vote, announces the procedural 
resolution.
    It is interesting that as we end here today, for whatever 
reason, we are no longer focused on that. And I found it very 
interesting that in 42 minutes of questions from the Minority, 
there was not a single question that related to the actual 
point where the vote was closed.
    Did you happen to notice that, Mr. Hartz?
    Mr. Hartz. Yes.
    Mr. Davis. Did you happen to notice that, Ms. O'Neill?
    Ms. O'Neill. Sure. Yes.
    Mr. Davis. It is interesting to me, and I didn't mean to 
you leave you out, Mr. Pierson. I assume you probably noticed 
that omission too, or perhaps you weren't paying attention.
    Mr. Pierson. I did not notice it.
    Mr. Davis. Let me tell you what I think that suggests, 
frankly, and perhaps get some reaction from those on the panel, 
if they wish to comment on it.
    I don't think there is any longer a question of 
culpability, other than the mistake that Mr. McNulty admitted--
which he admitted, by the way, on August 3rd, 2007, $500,000 
ago.
    So it is interesting that the 42 minutes of questions by 
the Minority were used to focus essentially on another event 
that wasn't even the subject of the resolution that has us 
here. That event, as I would describe it, is the exchanges 
between the Majority Leader and Ms. O'Neill and Mr. McNulty and 
the point where Mr. McNulty starts to call the vote and then 
pulls himself up.
    And I would say, based on my limited experience as someone 
who has been here for no more than 6 years, but for 6 years 
now, if we were to have an inquiry about every time a presiding 
officer starts to call a vote and then stops, that we would 
need not a Select Committee, but a Permanent Committee on the 
State of Mind of People Who Started to Prematurely Call Votes.
    Just last week I recall our instances when someone started 
to call a vote and someone said, stop, one more, or something 
like that. And I don't recall anyone saying, gee, what was the 
state of mind around that presiding officer to call that vote 
when somebody was in the well? It happens with some regularity.
    So I would simply make the observation that, at the end of 
the day, what we have is no evidence whatsoever in this record 
that the Majority Leader was anywhere near Mr. McNulty at the 
time he actually does make his mistake. I would submit there is 
no evidence in this record that Ms. O'Neill, you were even 
close to or had anything to do with Mr. McNulty when he makes 
his mistake.
    And the final observation that I would make, this business 
about a tally sheet, it is also interesting that during 42 
minutes of questions, there was no refutation to an observation 
I made during the direct exam.
    There is a lot of paper on the rostrum. There are prompt 
sheets. There are prompt sheets for what you do to recognize 
people. Is that correct, Mr. Hartz?
    Mr. Hartz. Yes.
    Mr. Davis. There are prompt sheets that they will tell you 
what language to use when you call a vote; is that correct, 
sir?
    Mr. Hartz. Yes.
    Mr. Davis. There are prompt sheets that direct a variety of 
procedural circumstances on the floor; is that correct?
    Mr. Hartz. Yes.
    Mr. Davis. And I see them faithfully given to every 
presiding officer. I see some use them, I see some ignore them. 
The ones that tend to ignore them, guess what, tend to be the 
ones that have been up there all the time.
    And if you put all that paper in perspective, it sounds 
entirely reasonable to at least one Member, the one speaking 
right now, that an experienced presiding officer might have 
viewed a tally sheet as the equivalent of all the other paper 
that is there. This is what we give you to give you some 
instruction on how to say it right; and if you are an 
experienced person, frankly, you may feel you don't need it.
    Now, frankly, after all this controversy, I think there is 
going to be more attentiveness on the part of presiding 
officers to waiting for a tally sheet.
    But don't we all wish we had 20-20 hindsight?
    So I will yield to Ms. Herseth Sandlin.
    Ms. Herseth Sandlin. Just a couple of points of 
clarification.
    Mr. Hartz, did you signal or tell Ms. O'Neill at any time 
to instruct Mr. McNulty to close the vote?
    Mr. Hartz. I did not.
    Ms. Herseth Sandlin. And Mr. Pierson, did you view Mr. 
McNulty's testimony yesterday to the Committee?
    Mr. Pierson. No.
    Ms. Herseth Sandlin. Are you familiar with the testimony 
Mr. McNulty provided in a prior interview with the Committee?
    Mr. Pierson. No.
    Ms. Herseth Sandlin. So you are not familiar with his 
testimony that he felt no pressure and received no instruction 
to close the vote?
    Mr. Pierson. That is right.
    Ms. Herseth Sandlin. And are you familiar with yesterday's 
testimony, Mr. Pierson, from the Parliamentarians or any 
interviews with the Parliamentarians or members of the Clerk's 
Office that there was a discussion among members of the 
Parliamentarians and Clerks not to process Mr. Boehner's card?
    Mr. Pierson. No, I am not familiar with that.
    Ms. Herseth Sandlin. And one last point, Mr. Pierson.
    There was a line of questioning to Mr. Hartz and Ms. 
O'Neill about perceived consternation among some conservative 
Democrats about the substance of the issue in the motion to 
recommit, in the procedural matter of the motion to recommit.
    Do you recall that three members of the Minority, three 
Members from the Florida delegation, changed their vote on the 
motion to recommit?
    Mr. Pierson. Yes.
    Ms. Herseth Sandlin. So is it fair to say that there is 
consternation among some Members of the Republican Party on the 
substance within the procedural motion to recommit?
    Mr. Pierson. On that particular motion? Yes.
    Ms. Herseth Sandlin. On that particular motion, the 
substance within that particular motion?
    Mr. Pierson. Yes.
    Ms. Herseth Sandlin. I think that is all I have, Mr. 
Chairman.
    The Chairman. Thank you, Ms. Herseth Sandlin.
    I am not going to make any observations, but I am going to 
note, Jay, your testimony on page 28 of your interview.
    In terms of talking about the slip and talking about the 
display of ``final'' on the summary board, this is what you 
said at your interview: ``The idea that you have a slip and 
that the board says `final,' that is not the rules of the 
House.'' Do you remember saying that?
    Mr. Pierson. I don't remember that. But it is not in the 
rules, that is true.
    The Chairman. You went on to say, they are not the rules, 
but protocol.
    Listening to your testimony, I think that you are of the 
belief that the slip is an important instrumentality of quality 
control, is that fair?
    Mr. Pierson. Extremely important, yes.
    The Chairman. Let me ask you this. In terms of the display 
of the word ``final'' on the board, what is your opinion in 
terms of whether that ought to be a continued practice? Or 
would you have any objection to its elimination to avoid 
confusion in the future? If you have an opinion?
    Mr. Pierson. I think it is nice to have it up there. I 
think in this case, it went up too soon, obviously. The Tally 
Clerk--I don't know how they operate, but--hit a button that 
put ``final'' up when it wasn't really final.
    So I think it is nice to have it up there, But in this 
case, it caused a lot of consternation.
    I think had we just lost the vote, it would have been bad 
enough, and we may have complained and said, it was held open. 
But when you see final on the board, everybody's thought is, 
oh, it is final, not it is semifinal.
    The Chairman. But it can lead to confusion?
    Mr. Pierson. It did this time. It is the only time in my 30 
years I have seen that.
    The Chairman. But I am just giving you my own opinion. I 
don't think it is really necessary, so why do it? I am 
beginning to reach that conclusion. But that will be a subject 
of our Committee deliberations.
    Maybe I will make an observation. I agree with Mr. 
LaTourette that the vote should have been 211 to 217, and I 
think another mistake was made. But I do not think it was made 
as a result of any actions by the majority, but it was a 
mistake that was made within and among the professional staff.
    It was obviously unintentional. I don't know if you have an 
opinion on that, Mr. Pierson.
    Mr. Pierson. Could you repeat the last part?
    The Chairman. In other words, I am saying that I think it 
was simply a mistake. And the mistake that was made--not 
processing the vote by Mr. Boehner--was a mistake that was made 
on the rostrum.
    Mr. Pierson. I think it was chaos; and that is what 
happened, in my opinion.
    The Chairman. Okay. Let me just conclude again by being 
very clear in terms of the rationale for you determining that 
there was extraordinary pressure brought to bear.
    Is there any other manifestation of that pressure that you 
personally observed, other than the two interactions between 
Mr. Hoyer and the Parliamentarians, that you can think of now?
    Mr. Pierson. Not specifically on the tape.
    And I didn't mention this, but after being here for 30 
years, many of it in Minority, if we had been in the Minority 
the whole time, I wouldn't have any idea how you close the 
vote, basically. But since we were in the Majority for 12 
years, I know how we closed votes; and it was from the Whip to 
somebody in the Speaker's Office to the Chair. And there were 
many times when they wanted to close the vote.
    And so with that in mind and knowing how that operates, and 
then seeing Hoyer, that was my deduction. At no other times do 
I remember, I wasn't there, I didn't hear him telling McNulty.
    The Chairman. It was those two instances, those two 
interactions that led you to that conclusion?
    Mr. Pierson. Yes.
    The Chairman. Well, again, I want to thank all of you for 
your participation. Thank you for your service.
    Now I will yield to Mr. Pence.
    Mr. Pence. Thank you, Mr. Chairman. I am informed that we 
have a vote on, and it is one vote, and I would like to 
recommend to the Chair that we recess and vote and return. We 
will have a 1-hour break, and I am confident we will be able to 
complete our work in the time following the vote. If we could 
ask your indulgence, we would be pleased to do that.
    The Chairman. Do any of you have any responsibilities?
    Mr. Davis. I would note we have 10 minutes left on the vote 
and 10 minutes left to question. We could conclude right now.
    Mr. Pence. I am happy to respond to that.
    I know the gentleman is very concerned about the money we 
are spending, but I think the Chair has made it very clear that 
we don't just have 10 minutes left of discussion, that he is 
going to continue to be very generous about the time that we 
require to answer the questions that we have.
    The Chairman. Let me just interject here, we will recess 
and return upon the conclusion of the vote.
    [Recess.]
    The Chairman. The Select Committee will come to order; and 
before yielding to my friend, the ranking member, I have two 
housekeeping issues I would like to address.
    First, this is a unanimous consent request, that the staff 
be allowed to make technical and conforming changes to 
documents that were submitted for the record, which includes 
allowing witnesses to review and edit their previous testimony 
which was inserted in the hearing record.
    Mr. LaTourette. Reserving the right to object, Mr. 
Chairman, does that include changing vote tallies?
    The Chairman. Please, Mr. LaTourette, I don't want to be on 
record again as having you prompt me into laughter.
    Hearing no serious objection, so ordered.
    Since during yesterday's hearing there was a reference to 
the CAO, Chief Administrative Office, I would like to insert 
into the record a letter that we received from Dan Beard, the 
Chief Administrative Officer of the House, after Mr. Pence and 
I interviewed him. In my opinion, the CAO's office acted in a 
manner consistent with H. Res. 611 as it related to the role 
that the CAO plays in regard to the administration of a vote.
    Mr. LaTourette. Again reserving the right to object, 
because I wasn't involved--and this will be serious, I 
promise--it is my understanding, at least as a member of the 
Minority--and maybe Mr. Pence can tell me to stop--but that 
what Mr. Pence was referring to was the fact that that 
resolution required all officers of the House to preserve 
documents. And the reason we don't have e-mails, for instance, 
from Mr. Hartz, isn't because of anything Mr. Hartz did, it is 
because the CAO didn't do what the resolution instructed him.
    So I guess if the CAO is now saying that he did something 
that complied with the resolution, I would like the opportunity 
to at least question that. Because, otherwise, we would have 
Mr. Hartz's e-mails.
    So I would yield to you on my reservation and just ask----
    The Chairman. When inquired of, the CAO indicated that it 
was his opinion that he conformed in good faith; and we simply 
have a letter here articulating that. And the unanimous request 
is to make that letter, which is dated April 9th, 2008--it is 
directed to myself and to Mr. Pence--a matter of the record.
    Mr. LaTourette. Continuing in my reservation, it is my 
understanding that the CAO has indicated to you and the ranking 
member that he didn't find the resolution sufficiently clear 
enough to have required him to segregate the e-mails of the 
people that were identified. And I just--as one Member, I 
don't--I do not find the resolution to be unclear in that 
regard. And I am willing to, as I think we have evidenced, that 
he made a mistake, that he didn't know. But to say that the 
resolution wasn't clear and he didn't preserve e-mails from 
people who the resolution instructed him to save e-mails and 
all other documents, I don't think I can agree with that 
observation. I am challenged.
    And I yield to the gentleman.
    The Chairman. Well, again, I respect the challenge and, 
obviously, your opinion. The letter I would suggest simply 
speaks for itself.
    Mr. LaTourette. And continuing on my reservation, I don't 
disagree with you, but what you are asking unanimous consent 
for is to include a letter from the CAO. And I assume, not 
having seen the letter, but from what he told you and Mr. 
Pence, that the letter says that I complied with House 
Resolution--I don't think he did. And I am willing to have him 
appear and be interviewed by people. We don't have to have 
another public hearing but to appear. And I don't believe that 
to be true.
    Now, I believe he could say he made a mistake. He didn't 
understand it. But there is nothing unclear about the 
resolution in my mind, nor is there anything unclear about his 
responsibilities. And he didn't discharge them, for which he 
may have a valid excuse. But just to say he complied with it, I 
disagree, and I guess I would object, if that's where we find 
ourselves.
    The Chairman. Hearing an objection, we will now proceed to 
the time for the Minority. Mr. Pence.
    Mr. Pence. Thank you, Mr. Chairman.
    Before I ask my final question and yield to my colleagues, 
I do have a statement.
    You know, with all due respect, we have listened patiently 
to Members on the other side of this Committee who suggest that 
essentially the so-called ``stolen vote'' really didn't matter. 
Didn't matter because the substance of the motion to recommit 
may have duplicated existing law. Didn't matter because 
Democrats graciously offered to do a do-over. Really didn't 
matter because, although Mr. McNulty misreported the final 
tally by failing for the only time in the past 40 years to read 
an official tally slip, didn't matter because there is no black 
letter rule in the House rules to require such a slip.
    With all due respect, I would submit, Mr. Chairman, that 
the integrity of the voting process of the House does matter. 
In fact, I believe it is all that matters in the House. The 
integrity of the House of Representatives is completely tied up 
in the integrity of the administration of the vote. As Mr. 
McNulty testified yesterday, each and every vote cast on the 
House represents 600,000 Americans who cannot be on the floor 
and therefore are represented by an individual.
    There has been some talk about--members of the panel--about 
a half a million dollars spent, and there have been press 
accounts of a half a million dollars spent on this Committee. I 
ask, what is the reputation of the House of Representatives 
worth? A Federal Government that provides for the common 
defense, promotes the general welfare, spends nearly $2 
trillion on an annual basis, spending half a million dollars to 
ensure that every American is properly represented on the floor 
is a proper and appropriate expenditure.
    Now, I understand Members on your side, some, Mr. Chairman, 
certainly not you, would wish this whole thing would go away, 
just as we might if the shoe were on the other foot. But the 
six of us don't have that luxury. As members of the House 
Ethics Committee, Congressmen LaTourette and Hulshof didn't 
have that ability when they had to sit in judgment of their own 
Majority Leader, Tom DeLay. They didn't have that luxury then, 
and Members of the Majority don't have that luxury today.
    With that, I have one more question for our witness, Catlin 
O'Neill; and I want to thank the panel again for their patience 
and cooperation.
    I will forego, Ms. O'Neill, replaying chapter 7, but I 
think we all understand the moment, about a 20-second segment, 
where you are having, to use the Chairman's phrase, an apparent 
interaction with the Majority Leader. You appear to turn, speak 
to Mr. McNulty. Mr. McNulty in that 20-second span grabs the 
gavel and attempts to close the vote.
    Let me ask you, were you surprised--you have indicated that 
no signal was given at that time by Mr. Hoyer or by you to Mr. 
McNulty. Were you surprised when Mr. McNulty gaveled the vote 
immediately after you spoke to him on that fourth time that we 
have reviewed?
    Ms. O'Neill. Yes.
    Mr. Pence. Thank you.
    Mr. LaTourette.
    Mr. LaTourette. Thank you very much; and, hopefully, I will 
just take a minute and give the rest of our time to Mr. 
Hulshof.
    I just wanted--the chairman began this hearing with a very 
eloquent opening statement that said that the culprit was going 
to be revealed, and it is 2(a). After hearing some remarks in 
the last series, round of questions, I now understand I think 
fully why Republicans have trouble with 2(a) and maybe the 
Democrats are less troubled. And that is the Democrats appear 
to be clairvoyant and can read the minds of not only the 
occupant of the Chair but also members of this Committee as to 
why they ask questions over the last 40-some minutes.
    And I would never call an argument made by another member 
ridiculous, but the argument because we can't see Steny Hoyer 
in the frame sort of like a WWF wrestler taking McNulty down to 
the ground that therefore he had no participation in either the 
first call or the second call is a little bit like saying when 
there is a bank robbery we can never convict the wheelman who 
is waiting outside for the guy with the mask and the cash and 
the gun. It is a little bit like saying if I hire Mike Pence as 
a hit man to go murder somebody I can never be convicted of 
murder.
    So there have been excellent questions, excellent arguments 
made. I just don't find some of the observations made during 
the last little bit to fall into that category. And be happy to 
yield to my friend from Missouri.
    Mr. Hulshof. I appreciate that.
    Mr. Pierson, very quickly, there has been some reference to 
the podium and I think a mental picture that somehow it is 
cluttered with documents. Can you clarify as the 
Parliamentarian hands prompt cards to the Speaker pro tem how 
is that actually done, sir?
    Mr. Pierson. Well, I thought there was some comments made 
by one person on the panel that left a misimpression that the 
rostrum is just full of papers all over the place and you have 
got to shuffle them and find out what you need.
    Basically, the Parliamentarians hand the Speaker a card. It 
is read. It is taken back. They are ready for another one. It 
is not like there is a stack of papers up there.
    And I might also point out that the slip of paper is the 
only paper that is handed by a standing Tally Clerk at the end 
of a vote to the Parliamentarians to the Chair. It is not like 
it is mixed up in that paper, you know, that is on the chair.
    And one other misimpression, the worst Chairs--and I think 
Catlin and Jerry would agree with this. The worst Chairs are 
the Chairs who don't read the slips. So the impression was left 
that the really good Chairs can do it without the slips, and I 
think that is partly a misimpression. I don't know about Mr. 
McNulty.
    Mr. Hulshof. Ms. O'Neill, is there anything Mr. Pierson 
just said you disagree with?
    Ms. O'Neill. I would--Jay is correct in saying that 
oftentimes the Chairs that are problematic don't read--don't 
read the slips of paper that they are given. However, there are 
papers. Although it is not a mess of papers on the desk, there 
are papers. And they are being given to the Chair from both the 
Parliamentarian and the Clerks on the other side. So there is 
an impression that it could be confusing, I believe.
    Mr. Hulshof. And, unfortunately, in this instance Mr. Davis 
alluded to earlier, 42 minutes of questions, and I guess he was 
expecting something from our side he didn't get, but the 
testimony before this Committee is that in 40 years one piece 
of paper that wasn't on the dais that should have been was the 
tally slip, and we didn't have that.
    Let me ask you, Ms. O'Neill, again just to clarify, Mr. 
Hoyer told this Committee that as he reviewed the videotape he 
is telling you that we need to shut down the vote when we are 
prevailing. Do you recall that conversation or do you not 
recall that conversation? Or did it not even happen? Can you 
just say flatly it didn't happen?
    Ms. O'Neill. I don't recall the conversation.
    Mr. Hulshof. Can we play, Hugh, can we just play chapter 7? 
I will let 20 seconds of my time go and ask you all to watch 
this, please, one last time.
    [Tape played.]
    Mr. Hulshof. Okay. Here are my observations, and I put them 
in the form of a question, Ms. O'Neill, to you and to you, Mr. 
Hartz.
    The motion to recommit involved a controversial subject. 
Each of you knew that the vote was going to be close, probably 
because of the difficulty on your side of the aisle among some 
of your Members who have a difficult time with this vote, with 
this subject matter. In fact, it has been well documented that 
there were some angst by leadership that the number of 
Republican motions to recommit that had been prevailing, that 
that caused some anxiety among leadership staff. And so here 
comes another motion to recommit with this very difficult issue 
about taxpayer benefits to illegal immigrants, and both of you 
know it is a close vote.
    And notwithstanding the fact that 11 previous votes the 
Speaker chose not to vote, which is her prerogative, on this 
vote, because of the tightness of the vote, Mr. Hartz, you 
indicated to her, gestured to her to go vote. The Majority 
Leader, Ms. O'Neill, says to us that he wanted to prevail and 
told you as such. And as we just witnessed from the videotape, 
you then turned from that conversation, from Mr. Hoyer, go to 
the presiding officer, Mr. McNulty, and even though you don't 
recall what was said, immediately thereafter he begins to gavel 
the vote down.
    And to be candid--and I mean no personal disrespect--the 
lack of recollection--I mean, we have thousands of votes. This 
is the only one in 40 years that we have heard about of this 
type of mishap occurring; and so this wasn't just a normal, 
routine vote. And so, quite frankly, I find the lack of 
recollection breathtaking.
    And you have testified before or at least given statements 
that it was your designated job, Ms. O'Neill, to actually talk 
to the presiding officer and direct the presiding officer about 
when to bring the vote to a close. And yet in this particular 
instance no recollection of that.
    Is that--Mr. Hartz, is that how we should leave this 
record? Because the hearing is about to conclude. Is that how 
this--is there anything I have said that you wish to amplify or 
take away from? Is that how you want this record to be 
considered by the American people about this roll call vote?
    Mr. Hartz. I believe this was an extremely close vote and 
there are a set of circumstances that were elaborated yesterday 
about what was in Mr. McNulty's head as he closed the vote. I 
think what he said speaks for itself.
    Mr. Hulshof. Ms. O'Neill, anything else you wish to amplify 
or to take away from? Or is the recitation that I have given a 
fair characterization in your mind about why we are here trying 
to get to--ascertain what actually occurred on roll call vote 
814?
    Ms. O'Neill. I can only tell you what I do know. And what I 
do know is that I don't recall any conversation with Mr. Hoyer 
outside of telling him they had 13 Members that still hadn't 
voted.
    I also know that I never told the presiding officer to 
close the vote and that if I were telling the presiding officer 
to close the vote, I would also keep the Parliamentarians 
apprised of that.
    Mr. Hulshof. And at least during this 20-second period of 
time it seemed that the conversation, albeit short, between 
yourself and the presiding officer, Mr. McNulty, that you were 
not talking to the Parliamentarian. At least that was my view 
of it. The tape speaks for itself. And so I guess we will just 
have to speculate or infer what the conversation was, given 
your absence of recollection.
    With that, Mr. Chairman, I yield back.
    The Chairman. I want to again thank the panelists. You are 
excused.
    Again, you have made a significant contribution, and we 
will see you on the floor. And if I walk in late and say one 
more, remember who is writing the report.
    Before I adjourn--please, you are all excused--just some 
housekeeping matters. I do want to thank the Republican 
members. You have been good to work with, and I still have some 
hope that we are going to reach a consensus. There might be 
some disagreements, but I do think that this has been a good 
process, and I think it is a process that, as I said yesterday, 
hopefully will achieve a result more than just simply--
hopefully an improvement in terms of our voting procedures here 
but also enhance the mood and the climate on the floor.
    And with that----
    Mr. Pence. Mr. Chairman.
    The Chairman. Mr. Pence.
    Mr. Pence. Let me take the opportunity to, on behalf of 
Members of the Minority, to thank you for the cooperative and 
collegial way you have approached this inquiry. It has been a 
pleasure to work with you and Mr. Davis and Ms. Herseth 
Sandlin. And while I leave these public hearings less 
optimistic that we will agree on what happened that night, I 
leave more optimistic that we will be able to embrace reforms 
and ensure it never happens again.
    I commend you for the way that you have taken this 
challenge on seriously, however reluctantly, and wish to 
express our appreciation and our ongoing commitment as we go 
forward with our report to find those matters upon which we can 
agree and hopefully leave the institution better off than the 
way we found it.
    The Chairman. Well, thank you, Mike. And I think the fact 
that we had these public hearings and that we have acted in a 
collegial fashion and that we have strived for, and I believe, 
transparency, so that those that are interested, those that 
observe these proceedings and review our report will have their 
questions answered in a way that is unfiltered, that they will 
be able to review the record, look at the statements that have 
been made, the documents that are present, reach their own 
conclusions as to the facts.
    But, again, I think that we even--and maybe I am woefully 
naive, but I am not going to surrender to pessimism here. I 
think that we can achieve a final report that is not just 
simply a good product but improves considerably the climate 
that is in the House now. Because I think that is what the 
American people, they clearly deserve that, and I think they 
are going to demand that of all of us.
    Mr. Hulshof. Mr. Chairman.
    The Chairman. Kenny.
    Mr. Hulshof. As a point of indulgence to you, Mr. Chairman, 
this is the second opportunity that I have had the chance to 
work with you personally. On the previous occasion, I wielded 
the gavel; and we worked very diligently behind closed doors in 
a more confidential setting, as was required by the rules of 
the House and our Ethics Committee.
    This has been a more public--even though there has been a 
lot of work behind the scenes, I think we should commend the 
staff for the diligence with which they brought to this. But I 
think all of us, if we start from a point of agreement, and 
your glass being half full over there, Mr. Chairman, I think 
all six of us believe that the integrity of the House must 
always remain inviolate. That is we must hold up and provide 
confidence to the people that we represent, that the integrity 
of the House is the most important thing. And so I think 
whatever the final----
    The Chairman. If the gentleman would yield for a moment.
    Mr. Hulshof. Yes.
    Mr. Chairman. I want to say this about the gentleman from 
Missouri, that he is correct, we worked together at another 
moment in the history of this particular institution that was 
unpleasant. And the gentleman on that occasion did wield the 
gavel. To me, he demonstrated political courage, integrity, and 
professionalism. And if he wants my endorsement in that 
Republican primary, I would be happy to render it.
    Mr. Hulshof. Wow.
    Mr. Chairman. But he is an exceptional Member that 
continues to make a great contribution to this institution. And 
much of what he has done has not been noted publicly, but I 
know what he did during a very controversial time when the so-
called Medicare vote, allegations surrounding that, ended and 
required action by the Ethics Committee. He and I served 
together on that subpanel. I know it was difficult, and I want 
to say publicly that you have my great admiration and respect. 
I think that was a significant contribution in and of itself.
    I know Steve LaTourette served on the full Ethics Committee 
at the time. Our report--and there were four of us on that 
panel, including John Shadegg of Arizona and Mike Doyle of 
Pennsylvania--I think reflected so well on the institution. But 
I think, ironically, Ken, that our attempt to reform was 
probably in response to that particular issue. And I think 
that--and this is unknown I am sure to even Stephanie and Mike 
and Steve--but that you and I had discussed the need for a 
maximum amount of time in terms of when a vote could remain 
open, and maybe if our advice had been accepted we wouldn't be 
here today.
    Mr. Hulshof. Well, I appreciate your kind thoughts. And as 
we close the books down on the testimony and as we now move 
into the next segment of this Committee's work, I hope, and I 
certainly applaud the gentleman from Massachusetts, the 
integrity of the institution is the most important thing. I 
mean, people from sea to shining sea must have confidence in 
the openness of this body. And so I hope let's begin then from 
this point forward from that point of agreement; and then if 
there are areas upon which we disagree, I am sure we will state 
those as well. But thank you.
    Mr. Chairman. And we can do those in a respectful and civil 
manner.
    And again, you, Mike and yourself, observed that we have 
been very fortunate to have an outstanding staff. Every single 
member of our staff and those whom we sought, outside help--and 
I am looking at Judy here--they have been superb. I think that 
as Members we can be proud of the service that we have received 
from the staff that is sitting behind us. I know I said 
yesterday I would be adrift without their assistance and 
without their input. It shows what people can do when they work 
together in a way that is respectful of each other.
    And with that, we will now adjourn.
    [Whereupon, at 12:22 p.m., the Committee was adjourned.]

                                  <all>

</pre></body></html>
